<html>
<title> - EQUALITY FOR THE DISTRICT OF COLUMBIA: DISCUSSING THE IMPLICATIONS OF S. 132, THE NEW COLUMBIA ADMISSION ACT OF 2013</title>
<body><pre>[Senate Hearing 113-713]
[From the U.S. Government Publishing Office]


 
                                                        S. Hrg. 113-713

                 EQUALITY FOR THE DISTRICT OF COLUMBIA:
                DISCUSSING THE IMPLICATIONS OF S. 132, THE 
                   NEW COLUMBIA ADMISSION ACT OF 2013

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             SECOND SESSION

                               ----------                              

                           SEPTEMBER 15, 2014

                               ----------                              

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


                    U.S. GOVERNMENT PUBLISHING OFFICE
92-904PDF               WASHINGTON : 2015                    
_______________________________________________________________________________________                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9cfbecf3dcffe9efe8f4f9f0ecb2fff3f1b2">[email&#160;protected]</a>  



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                  Gabrielle A. Batkin. Staff Director
               John P. Kilvington, Deputy Staff Director
                      Deanne B. Millison, Counsel
                    Holly A. Idelson, Senior Counsel
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
               Gabrielle D'Adamo Singer, Minority Counsel
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                           
                           C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Coburn...............................................     3
Prepared statements:
    Senator Carper...............................................    43
    Senator Coburn...............................................    46

                               WITNESSES
                       Monday, September 15, 2014

Hon. Eleanor Holmes Norton, Delegate of The District of Columbia, 
  U.S. House of Representatives..................................     6
Hon. Vincent C. Gray, Mayor, District of Columbia................     9
Hon. Philip H. Mendelson, Chairman, Council of the District of 
  Columbia.......................................................    11
Hon. Viet D. Dinh, Professor, Georgetown University Law School...    21
Hon. Alice M. Rivlin, Ph.D., Senior Fellow and Leonard D. 
  Schaeffer Chair in Health Policy Studies, The Brookings 
  Institute......................................................    23
Wade Henderson, President, Leadership Conference on Civil and 
  Human Rights...................................................    25
Roger Pilon, Ph.D., J.D. Vice President for Legal Affairs and B. 
  Kenneth Simon Chair in Constitutional Studies, Cato Institute..    27
Hon. Paul Strauss, Shadow Senator, District of Columbia..........    29
Hon. Michael D. Brown, Shadow Senator, District of Columbia......    31

                     Alphabetical List of Witnesses

Brown, Hon. Michael D.:
    Testimony....................................................    31
    Prepared statement...........................................   170
Dinh, Hon. Viet D.:
    Testimony....................................................    21
    Prepared statement...........................................    74
Gray, Hon. Vincent C.:
    Testimony....................................................     9
    Prepared statement...........................................    54
Henderson, Wade:
    Testimony....................................................    25
    Prepared statement...........................................    90
Mendelson, Hon. Philip H.:
    Testimony....................................................    11
    Prepared statement...........................................    62
Norton, Hon. Eleanor Holmes:
    Testimony....................................................     6
    Prepared statement...........................................    50
Pilon, Roger Ph.D. J.D.:
    Testimony....................................................    27
    Prepared statement...........................................    95
Rivlin, Hon. Alice M.:
    Testimony....................................................    23
    Prepared statement...........................................    87
Strauss, Hon. Paul:
    Testimony....................................................    29
    Prepared statement with attachment...........................   100

                                APPENDIX

Additional statements for the Record:
    Committee on DC Minority Report submitted by Senator Coburn..   173
    GWU Law Review Article.......................................   216
    Letter submitted from Lee Casey, Baker and Hostetler LLP.....   245
    Article submitted by Jonathan Turley, George Washington Law 
      Professor..................................................   247
    Office of Legal Policy Report to Attorney General............   251
    Congressional Research Service...............................   399
    Charles Allen, Democratic Nominee, Council of the District of 
      Columbia...................................................   408
    Committee for the Capital City...............................   412
    Mary M. Cheh.................................................   418
    District of Columbia Bar.....................................   442
    Attorney Johnny Barnes.......................................   445
    Timothy Cooper, Executive Director, World Rights.............   504
    Citizen Letters..............................................   506
    Bend the Arc Jewish Action...................................   553
    Central Conference of American Rabbis........................   555
    Gregory Allen Cendana........................................   556
Responses to post-hearing questions for the Record:
    Ms. Norton...................................................   558
    Mr. Gray.....................................................   561
    Mr. Mendelson................................................   565
    Mr. Dinh.....................................................   572
    Ms. Rivlin...................................................   576
    Mr. Pilon....................................................   577


                 EQUALITY FOR THE DISTRICT OF COLUMBIA:.
                DISCUSSING THE IMPLICATIONS OF S. 132, THE 
                  NEW COLUMBIA ADMISSION ACT OF 2013

                              ----------                              


                       MONDAY, SEPTEMBER 15, 2014

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:03 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Committee, presiding.
    Present: Senators Carper and Coburn.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. Good afternoon, everyone. The hearing will 
come to order. When I assumed the chairmanship of this 
Committee in January 2013 and Dr. Coburn became the Ranking 
Member, a Committee with broad jurisdictions over the Federal 
Government operations and homeland security. I took on the 
responsibility for Federal legislation on matters concerning 
the District of Columbia whose more than 600,000 citizens are 
denied a vote in Congress.
    I take that responsibility seriously, which is why last 
year I introduced the New Columbia Admissions Act to create a 
path, if you will, to end the voting inequality that exists. 
The District of Columbia is not just a collection of government 
offices, museums and monuments. It is a home to a little more 
than 632,000 people, more than both Wyoming and Vermont, and 
these residents pay over $20 billion in Federal taxes. That is 
more than the Federal taxes paid by States like Nebraska, South 
Carolina, and New Hampshire. These residents work, study, raise 
families and start businesses here, just like people do in all 
50 States. They also serve in the military.
    Yet when it comes to having a vote in Congress, these men 
and women really do not count, at least not in the same way. In 
truth, they never have. And while they bear the full 
responsibilities of funding our Federal Government and dealing 
with the consequences of the laws that it enacts, they do not 
enjoy the benefits and protection of having voting 
representation, in our Congress. In my view, this situation is 
simply not fair. Neither is it consistent with our values as a 
country. Perhaps most importantly, though, it is not consistent 
with the Golden Rule, that is to treat other people the way we 
would want to be treated.
    Voting rights is a passionate cause for many of the 
citizens of the District of Columbia. It has been for years and 
I believe it should be a cause for concern for all of us. It is 
the major reason why we are here today, 20 years after the last 
testimony before Congress on District of Columbia statehood. My 
goal for this hearing is to educate a new generation of people 
about this injustice and to restart the conversation about 
finding a more thoughtful solution.
    I was personally surprised to learn last year that the 
United States is the only democracy in the world that denies 
voting representation to the people who live in its capital 
city. Not one of 100, not one of 10, the only one. The United 
Nations Human Rights Committee has called us out on that. They 
have deemed the District of Columbia's lack of voting 
representation a human rights violation.
    But there is more to this injustice and inequality. The 
District of Columbia's disenfranchisement places its citizens 
in a doubly vulnerable political position. Unlike any other 
city in the United States, Congress holds ultimate control over 
the District of Columbia's laws, and even its day-to-day 
operations. In recent years, Congress has shown less of an 
inclination to meddle in the District of Columbia's affairs 
that it has in the past.
    But the fact remains that my colleagues and I can, if we 
choose to, overrule the voters of the District of Columbia and 
their local officials on any of a number of local issues that 
we want. So without their own vote in Congress or the ability 
to spend money and pass laws without Congress' consent, the 
District of Columbia is, at times, used as a political pawn for 
some of our colleagues looking to impose their own agenda on 
the city without regard for the views of the citizens who must 
live with the consequences.
    Just last fall, the District of Columbia was caught up in 
the Federal shutdown and was nearly blocked from using local 
tax dollars to keep basic city functions running, functions 
like schools, libraries, trash collection, just to name a few. 
Some determined and creative efforts by city officials avoided 
that outcome, but only after incurring needless costs and 
uncertainty in planning for the Federal shutdown.
    We have tolerated this situation for a long time. I think 
most people know it is just not right. It is incumbent upon 
those of us who enjoy the right and privilege of full voting 
rights to take up the cause of our fellow citizens here in the 
District of Columbia and to find a workable solution.
    I would be the first to acknowledge this is not a new 
cause. As soon as the capital city was organized in 1801, 
citizens of the District of Columbia began fighting for equal 
representation, and since that time, Congress has considered 
several legislative options. In 1978, Congress passed a 
constitutional amendment to give the District of Columbia full 
voting rights in Congress. In 2009, the Senate voted to give 
the District of Columbia a voting seat in the House. And for 
many years, members have offered bills to provide statehood for 
the District of Columbia.
    The bill I introduced is the latest chapter of that ongoing 
effort. It may not be the last chapter, but it attempts to 
right a wrong that should have been righted by now. S. 132 
would pave the way for the potential creation of the 51st State 
called New Columbia with full voting rights in Congress. Under 
the bill, a full district called Washington, DC. encompassing 
the White House, the Capitol, the Supreme Court, the National 
Mall, some other pieces of land would still remain under the 
control of Congress as the Constitution mandates.
    Now, I realize that not everyone will agree that this is 
the right solution and there are a number of legitimate 
questions about how this would work. I have a few myself. Our 
witnesses today will discuss some of these questions, and most, 
but not all of them, will lay out a strong case for why this 
approach is appropriate, why it is constitutional, and the 
preferred approach for many of the residents who live here in 
the District of Columbia.
    The Senate bill currently has 18 cosponsors. I am told it 
is the most cosponsors ever on a Senate District of Columbia 
statehood bill. I know Congresswoman Eleanor Holmes Norton, who 
is here today, has introduced companion legislation in the 
House which has a record number, I am told, of cosponsors. I 
think it is 104.
    Today we are going to hear from two panels of witnesses who 
are going to shed some light on this topic. On our first panel, 
we have three elected officials from the District of Columbia 
who will speak on how its current status affects its residents 
and their own abilities to govern effectively. Then our second 
panel will have six witnesses who will discuss other issues 
surrounding the topic of statehood, including its 
constitutionality, feasibility and practicality.
    Dr. Coburn, with whom I am privileged to serve, we have 
worked together for a number of years, we agree on a whole lot 
of issues. This is one where we just have an honest difference 
of opinion. I respect his opinion, as he knows. With that, let 
me just turn to Dr. Coburn so we can hear some of his views, 
and then we will hear from our witnesses today. Thank you. Dr. 
Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Thank you, Mr. Chairman. Welcome to our 
honorable guests from the District of Columbia. Since 1888, 
there have been hundreds of bills and amendments proposed to 
address the representation of the District of Columbia. Since 
1964, Congress has held no less than 10 hearings on it. The 
House debated statehood in 1992. They heard from over a dozen 
witnesses and got another 20 opinions from every segment of the 
government.
    Witnesses identified numerous problems from constitutional 
to financial to administrative. The 1992 Minority Staff Report 
does an excellent job of laying all those issues out. Yet here 
we are again debating this issue even though it has no chance 
of success in this chamber and is dead on arrival in the House, 
and will not and cannot possibly be considered before we go 
sine die.
    This bill makes a state out of the neutral land that houses 
the Federal Government. It is unprecedented. Little effort was 
made to hold a hearing that seriously debates this bill. More 
than half the witnesses are representation from the District of 
Columbia in their elected capacities, all with the same agenda 
and voicing the same interests. They are legitimate.
    With the exception of a witness I invited, none of the 
witnesses here provide an alternate opinion. None. You can 
learn a lot about the seriousness of this hearing by looking at 
who is not here. Where is the Department of Justice (DOJ)? 
Every Department of Justice that has issued a report or 
testified about legislated District of Columbia statehood--
Kennedy, Carter, Reagan, Bush--has concluded it is 
unconstitutional and would come with other extremely complex 
legal challenges.
    Where is the Congressional Budget Office (CBO), the Office 
of Management and Budget (OMB), the Interior, Transportation, 
State, Defense, the General Services Administration, and the 
Treasury? District of Columbia statehood would significantly 
affect the Federal Government's operations, including use and 
access to water and sewer services, utilities, police and fire 
services, infrastructure, communication networks, the District 
of Columbia National Guard, District of Columbia's unfunded 
liabilities and other benefits, and ability to control the 
aesthetics and conditions of our nation's capital.
    District of Columbia statehood would also come at an 
unknown cost to the United States. Who here is representing the 
interests of other States? District of Columbia statehood would 
significantly affect the sovereignty of other States, becoming 
the first among equals. Nothing in the bill prevents New 
Columbia from still getting the special funding the District of 
Columbia gets, $674 million each year by virtue of being the 
nation's capital.
    District of Columbia residents got more than eight times 
the national average of Federal aid per capita, and more than 
two times the next highest State. Who is here to represent 
Virginia and Maryland? There is a serious question as to 
whether Maryland's consent would be necessary to create a new 
State, since it gave the land to the capital. The bill even 
gives New Columbia control over certain land in Virginia and 
Maryland, a serious affront to their sovereignty.
    I will pass on that the District of Columbia residents 
suffer an injustice, I agree, by not having a vote, but 
Congress cannot bypass the constitutional amendment process 
simply because it is inconvenient. The Framers designed the 
District to be an autonomous Federal area, separate from any 
State's influence, and different from all other Federal land. 
It is patently false to say the Framers could not have 
predicted the city would thrive. The District was envisioned 
prior to 1800 as a large, powerful city with 800,000 people--
more than the District of Columbia has now, more than even 
Paris had at the time. President Kennedy's Attorney General 
said Congress cannot reduce the District's size any more than 
it can remove a State from the Union.
    Attorney General Kennedy said, a small enclave clearly does 
not meet the concept of the permanent seat of government, which 
the Framers held. President Reagan's Attorney General said he 
would recommend the President veto any bill providing statehood 
without a previous constitutional amendment.
    Lee Casey, who wrote that report, could not testify today, 
but sent a letter with an original copy and reiterating its 
findings, the last report an Administration has issued on this. 
I would ask unanimous consent that that be added to the 
record.\1\
---------------------------------------------------------------------------
    \1\ The letter submitted by Lee Casey appears in the Appendix on 
page 245.
---------------------------------------------------------------------------
    Chairman Carper. Without objection.
    Senator Coburn. This bill also largely ignores the 23rd 
Amendment, which recognized the District of Columbia and gave 
its residents three electoral votes. Granting statehood without 
first repealing the 23rd Amendment creates a legal and 
political absurdity, allowing a few residents, including the 
White House occupants, to be the decisive votes in a close 
Presidential contest.
    Howard Law Professor Adam Kurland says as much in a Law 
Review article, and I would like to ask unanimous consent that 
that be entered into record.\1\
---------------------------------------------------------------------------
    \1\ The Law Review article appears in the Appendix on page 216.
---------------------------------------------------------------------------
    Chairman Carper. Without objection.
    Senator Coburn. And then finally, George Washington Law 
Professor Jonathan Turley, who could not be here today to 
testify, but wrote an informative article about the political 
and constitutional implications of this bill. I would like to 
have that admitted for the record.\2\
---------------------------------------------------------------------------
    \2\ The article from Mr. Turley appears in the Appendix on page 
247.
---------------------------------------------------------------------------
    Chairman Carper. Without objection.
    Senator Coburn. I will close with a quote from one of our 
witnesses today. Alice Rivlin, in 2009 said this: ``I think 
statehood is so unlikely to happen in the foreseeable future 
that pursuing it is a serious distraction from more important 
and feasible policies that could both improve the autonomy and 
fiscal health of the District.'' I agree. I yield back.
    Chairman Carper. Dr. Coburn, thanks very much. Again, our 
purpose here today is to start an old conversation. We look 
very forward to the testimony of the witnesses here and, 
frankly, the input of other people that are not here.
    Our first witness today is the Honorable Eleanor Holmes 
Norton, Washington, DC native. Congresswoman Norton has fought 
for the interests of the District of Columbia citizens on 
Capitol Hill since 1991. I was privileged to serve with her in 
the House for 2 years before going on and becoming Governor of 
Delaware. She has been the city's sole elected delegate to the 
House of Representatives, although, unfortunately, not a voting 
one.
    She has a long history in the field of civil rights, 
including serving as Chair of the Equal Employment Opportunity 
Commission. Congresswoman Norton is also a tenured law 
professor at Georgetown University. Congresswoman Norton 
currently serves as the Ranking Member of the House 
Subcommittee on Highways and Transits, and we thank you for 
joining us today and for sharing your thoughts with us. It is 
always good to be with you. Thank you.
    Our second witness is the Honorable Vincent Gray. Mayor 
Gray has served as Mayor of the District of Columbia since 
2011, and prior to that chaired the City's legislative branch, 
the Council of the District of Columbia. Mayor Gray was also 
born and raised in Washington, DC, has been active in city 
politics at many levels, and is closely familiar with the 
issues that citizens of the District face every day. Mayor, 
thank you for joining us this afternoon.
    And our final witness on this panel is the Honorable 
Chairman, Phil Mendelson, and Chairman Mendelson serves on the 
District of Columbia Council since 1998 and was elected 
Chairman in 2012. As Chairman, he leads the Council on all 
legislative matters and presides over the Committee of the 
Whole. Chairman Mendelson also serves as the Chairman of the 
Board of Directors for the Metropolitan Washington Council of 
Governments.
    Again, we thank you all for being here today. Congresswoman 
Norton, I am going to ask you to lead us off and then we will 
recognize the Mayor and Chairman Mendelson and then we will 
have some questions. Please proceed. Your entire statement will 
be made part of the record. Feel free to summarize as you see 
fit. Thank you.

TESTIMONY OF THE HON. ELEANOR HOLMES NORTON,\1\ DELEGATE OF THE 
      DISTRICT OF COLUMBIA, U.S. HOUSE OF REPRESENTATIVES

    Ms. Norton. Thank you very much, Mr. Chairman, and for that 
reason, I am going to try to summarize most of my testimony. 
Chairman Carper, Ranking Member Coburn, I know I speak for the 
enthusiastic, record number of residents who have come to 
attend this hearing. I thank you for the opportunity to testify 
this morning and this afternoon on their behalf, because this 
hearing is the leading indicator of their work and the work of 
our elected officials to get the unusual progress we have now 
made on advancing the District of Columbia statehood and its 
individual components.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Norton appears in the Appendix on 
page 50.
---------------------------------------------------------------------------
    Let me thank you, Chairman Carper, as the new Chair. You 
have been very energetic in helping us in many significant 
ways, of which this first hearing on statehood is perhaps the 
most high profile. But elected officials and I know of your 
work for the District and appreciate it very much.
    With your early initiative in introducing the bill, the 
record number of Senators you have gotten as cosponsors. You 
have now broken the record on Senators who support the bill led 
by the Majority Leader who generally does not cosponsor a bill, 
and the four top Democratic leaders all go to the support that 
is building in the Senate for the bill.
    Mr. Chairman, the residents are grateful for today's 
hearing, not because they are naive. They live in the belly of 
the beast here. They understand the Congress, what it does and 
does not do and how long it takes to do what it does do. They 
are grateful for this hearing and have considerable 
appreciation for it because they understand what a hearing is. 
It is a significant and necessary step to putting an issue on 
the official congressional agenda. It is the most important 
vehicle that Congress has, not only to educate members, but to 
signal that the matter constitutes a serious national issue 
that can move to passage.
    At the same time, Mr. Chairman, I want to be clear that the 
elected officials, and you see by the number of residents who 
are here, and I are clear that your willingness to hold this 
hearing, as I requested, carries a reciprocal responsibility on 
all of us who live in the District to continue to build support 
for the bill in Congress and in the public. Mr. Chairman, we 
have learned many lessons. For example, from the more than the 
hundred years it took us to get home rule, living in the 
District with no government whatsoever and no delegate, we 
learned that there could be no collective action until 
residents engaged the city and engaged the Nation.
    You have a very distinguished panel of expert witnesses to 
testify before you today, so I think my best contribution would 
be to speak from the vantage point of the member who represents 
the District in the Congress, which allows me to put this 
hearing in some context and to say why I believe it is 
particularly timely.
    We do not believe that the fact that this is a historically 
unproductive Congress or that we have been in the minority for 
most of my service in the Congress should discourage us from 
seeking what is an indispensable remedy to achieve our full 
citizenship, and we believe it is achievable.
    During this same period in the Congress, with the support 
of residents and members of the House and Senate, we have made 
continuing progress on the major elements of statehood, the 
elements that the Ranking Member spoke about when he said that 
Dr. Rivlin thought that we ought to be working on other aspects 
leading up to statehood as well. This is exactly what we have 
been doing.
    Even as we have continued to press for statehood itself, 
most recently, for example, budget and legislative autonomy and 
anti-shutdown legislation, all have moved further than at any 
point since the Home Rule Act of 1973. The President has put 
both the budget and legislative autonomy in his budget, the 
first time that any President has put both in his budget.
    Representative Darrell Issa, my good friend in the House, 
called a hearing last Congress on the District of Columbia 
budget, and after hearing Republican and Democratic witnesses 
alike testify about the District of Columbia's financial 
condition, its reserve, its growth in population, was among the 
best in the Nation. He himself endorsed budget autonomy and has 
worked tirelessly with local officials and me and Republican 
interest groups to secure budget autonomy.
    Last Congress, House Majority Leader Eric Cantor endorsed 
the District of Columbia budget autonomy bill. The District of 
Columbia appropriations bills enacted for the current fiscal 
year (FY) have anti-shutdown language for the District of 
Columbia, permanent language, and we have been able to keep 
shutdowns from occurring even if, once again, the Congress 
shuts down, because for the first time, we have been spared the 
threat of a shutdown for the entire fiscal year.
    The House version of the District of Columbia Appropriation 
bill for the next fiscal year also prevents shutdown for that 
following year. We are grateful that the pending budget and 
legislative appropriation bills of this House, the Senate would 
permanently grant the District anti-shutdown authority and also 
budget and legislative autonomy are in the Senate 
Appropriations Bill.
    So we are making progress on the components of statehood 
and we believe, over time, that the Congress will see that the 
components of statehood should add up to Statehood itself.
    Now, your panel will show the details and I am not going to 
reiterate the details of why we should have statehood. I am 
only going to summarize one or two of the indicators that I 
think should and would impress any American.
    They are going to show, Mr. Chairman, that the District's 
economy has become one of the strongest in the Nation. A $12.5 
billion budget, larger than the budget of 12 States. A $1.75 
billion surplus and growing, the envy of the States. A per 
capita personal income higher than that of any State. And 
resident income expenditures that are equally impressive. A 
growth rate of people are flocking to live in the District of 
Columbia. We are having to build housing for them, a larger 
population than Wyoming or Vermont, putting us in a league with 
seven States which have less than a million residents.
    You are going to hear why statehood is necessary for 
District of Columbia residents, but as the District's elected 
congressional representative, I want to say to you, Mr. 
Chairman, that it hit me in the face every single day. I feel 
it when the bell rings and I cannot vote for or on behalf of 
the 650,000 residents who live in the District, paying $12,000 
per capita, higher taxes than any American anywhere.
    I know I will feel it this week when I go to the floor to 
debate our country's military engagement in Islamic State of 
Iraq and the Levant (ISIL) because I have gone to the floor 
every time there has been a war since becoming a member of 
Congress and I shall never forget the purple fingers in Iraq 
and Afghanistan that signaled that they now had representation 
in their national legislature, while our residents fought and 
died in those wars and came home once again without the same 
rights they had gone to war and obtained for others.
    In all of the 20th Century wars, we lost residents 
disproportionately, most tragically in Vietnam, when there were 
more District of Columbia casualties than 10 States of the 
union. You are going to hear testimony that you have the 
authority to grant statehood. You are going to hear testimony 
about the accident in Philadelphia that resulted in Federal 
control.
    Finally, Mr. Chairman, ever since the creation of the 
capital, we have been an outlier in our own country, integral 
to the Nation, but divorced from its democratic principles. My 
own family has lived here for 150 of the 224 years that we have 
been the nation's capital, ever since my great-grandfather, 
Richard Holmes, a slave, walked off of a plantation in Virginia 
and made his way to the District of Columbia.
    Three generations of the Holmes' family have gone to 
segregated schools in the District of Columbia, as required by 
the Congress. We do not wish, Mr. Chairman, to be second-class 
stepchildren in the union, or voyeurs of democracy as you vote 
on how much in taxes we will pay or how many of our sons and 
daughters will go to war.
    We believe you have two choices, Mr. Chairman. The Congress 
can continue to exercise autocratic control over the District 
of Columbia or it can live up to the Nation's promise and its 
ideals by passing the New Columbia Admission Act. That is what 
we are asking today. Thank you, Mr. Chairman.
    Chairman Carper. Thank you so much. Thank you for your 
passion, for your leadership, and for your testimony today. We 
look forward to asking you some questions. Mayor Gray, please. 
I am going to ask you just to--we want to have a good back and 
forth with this panel. We have another panel with six more 
witnesses, so I would ask you if you could speak for 5 minutes. 
If you can stay close to that, we would really appreciate that. 
Thank you.

    THE HON. VINCENT C. GRAY,\1\ MAYOR, DISTRICT OF COLUMBIA

    Mr. Gray. Thank you, Mr. Chairman. Chairman Carper and 
Ranking Member Coburn, I want to thank you for the opportunity 
to be here this afternoon. As you indicated, I am Vincent Gray. 
I am the Mayor of the District of Columbia and I am grateful 
for this hearing having been convened today. I think it is yet 
another step in the direction of bringing full democracy to the 
District of Columbia, and we hope to see, at some point in the 
not too distant future, the approval of the New Columbia 
Admissions Act.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mayor Gray appears in the Appendix on 
page 54.
---------------------------------------------------------------------------
    If enacted, this bill would grant the long-awaited status 
of statehood to much of the District of Columbia while also 
preserving a Federal District that would contain the principal 
monuments and significant Federal buildings that already exist 
in this city, which would continue to conserve the Federal 
control over space in the capital city.
    We are the only place in America where Americans are 
serving in the military, where they are fighting, where they 
are dying, serving in wars, serving on juries, and are taxed in 
the same way as other Americans without any voting 
representation at all in the Congress of the United States. 
Gentlemen, that is just plain wrong.
    The proposed bill is an important step in lighting the way 
to new justice in the city and to achieving political equality 
for what is a population of 660,000 people who live in the city 
because we are growing at the rate of 1,000 to 1,200 people a 
month.
    As a native Washingtonian, I absolutely love the District 
of Columbia. It is a place of strong community and a place of 
American pride; except for our failure to provide the full 
democracy and adhere to full democratic principles as is done 
in the rest of America. It is home, as I indicated, to over 
660,000 people, which is more than the population, as has been 
pointed out, of two States, Wyoming and Vermont.
    We have hard-working families here, and incredibly--and I 
have witnessed this in another State legislature--there are 
some who do not even know that people live in the District of 
Columbia. They believe that it is just home to Federal 
monuments, Federal buildings, and Federal activity and that 
people go home to Maryland and Virginia and other places each 
day and do not live in the District of Columbia.
    But we are far more than the Federal Government. We have a 
substantial economy in this city and we have a decade-and-a-
half, some 15, 16 years of a record now of passing balanced 
budgets, as well as a strong fiscal status at present. As you 
heard Mrs. Norton say, we have a reserve fund of $1.75 billion, 
which is the largest in the history of the District of 
Columbia.
    We also developed a State apparatus, a Medicaid agency, 
state school board, a state homeland security agency, a state 
level attorney general's office, a state level national guard, 
and more. We have a body of laws that already are accorded 
state level status by courts, as well as the Federal Government 
for numerous purposes. Our residents are the only residents of 
a major capital city--and you pointed this out, Mr. Chairman--
in the free world who have no voting voice in our national 
legislative body.
    Though Congress has, since the 1973 Home Rule Act, provided 
for partial Home Rule by the District of Columbia, we have, for 
the last 40 years, been forced to function within a political 
structure that cannot determine a local budget without the 
approval of Congress, even though those dollars are raised, in 
large part, by the people of the District of Columbia.
    We also have to be wary of a Congress that at any time can 
overturn local laws here in the city. These barriers to full 
autonomy present numerous practical problems for the District's 
elected leadership, government workers, and residents. The 
District of Columbia annually raises, in our own tax dollars 
through income taxes, property taxes, and sales taxes, $6 
billion, and that is then used as a part--as the lion's share, 
frankly--of our budget. And while not all of it, but the lion's 
share of the Federal dollars we get, we get in the same way as 
any other State does, through the Medicaid program, through the 
Temporary Assistance for Needy Families (TANF) program, through 
the Federal Highways program, and others.
    Despite the fact that we have followed the budget process 
required of us by Federal law, and passed a balanced budget 
every year religiously and diligently, we have been forced to 
operate under continuing resolutions passed by Congress each 
year, often for months after the beginning of the fiscal year.
    By congressional mandate, the District of Columbia is 
forced to send every piece of legislation passed by the Council 
and signed by me as Mayor to Congress for review, and we think 
that is unnecessary and it is just plain wrong. This delays 
implementation of our laws by weeks and sometimes months 
because of the vagaries of the congressional calendar. The 
forced dependence on congressional approval not only can 
potentially paralyze the core functions of the District of 
Columbia, in the past it has.
    The numerous threats of Federal shutdown directly impact 
the District of Columbia Government because we are treated as a 
Federal agency rather than a municipality or a state 
government. We just saw this happen last October when there was 
an effort to shutdown the District of Columbia as if we were 
the National Park Service, the Interior Department, the 
Commerce Department, or some other Federal entity, and we were 
able to actually keep our government open for the 16 days of 
the Federal shutdown using our own reserves to do that.
    And what a travesty it would have been to shut down a city 
that was living essentially off of its own dollars in order to 
be able to accomplish what we think was an ill-advised purpose 
in the first place, and I am glad that we ultimately were not 
part of that.
    I think the Ranking Member and the Chairman both know that 
we have adopted the motto that has been known for centuries in 
this Nation, ``Taxation Without Representation.'' That is 
obviously what motivated the creation of America in the first 
place, and hopefully it will motivate the freeing of the people 
in the District of Columbia from the bondage that we suffer at 
this stage.
    People who pay taxes for the upkeep of their government, we 
think, we hope, everybody else agrees, should have a voice in 
how their government is run. In early 2011, I testified before 
the House Committee on Oversight, Subcommittee on Health Care, 
District of Columbia, Census and the National Archives about 
our then-2012 budget.
    During that hearing, I noted that the District has unfairly 
been subject to the political whims of Congress because, 
frankly, of Congress's control over our budget. The full 
Committee Chairman, as you heard, Darrell Issa of California, 
and then Subcommittee Chair, Trey Gowdy of South Carolina, both 
noted their surprise in learning of the extent to which the 
Federal budget process interferes with the District of 
Columbia's ability to operate efficiently.
    Over the course of the past few years, the District worked 
with Chairman Issa on developing broad principles on which we 
could agree that would provide the District with the autonomy 
to do what every State does in its budget process, develop a 
budget based on the priorities set by the Executive and 
Legislature, pass that budget according to the laws of the 
State, and then sign that budget into law.
    Chairman Issa, in concert with Congresswoman Norton, 
developed a bill that would move the District significantly 
forward in terms of budget autonomy. Unfortunately, because 
many Members of Congress do not recognize or acknowledge that 
autonomy for the District is not and should not be a partisan 
political issue, that bill simply did not advance.
    And so, Mr. Chairman, I want to underscore the importance 
of this bill. I want to thank you again for the opportunity to 
be here to testify on behalf of our city, which we hope will 
become a State. It has to be recognized that, as you pointed 
out, $20 billion in taxes being paid to the Federal Government, 
we do the things that virtually every other State does, and in 
the course of it, Mr. Chairman, we are deprived of the 
opportunity to enjoy the full freedom and democracy that is a 
promise to every American.
    Chairman Carper. Mayor, thank you for joining us, for that 
testimony and we look forward to having a chance to ask some 
questions. Chairman Mendelson, please proceed. We are delighted 
to see you here.

TESTIMONY OF THE HON. PHILIP H. MENDELSON,\1\ CHAIRMAN, COUNCIL 
                  OF THE DISTRICT OF COLUMBIA

    Mr. Mendelson. Thank you, Chairman Carper, and good 
afternoon. I am Phil Mendelson, Chairman of the Council of the 
District of Columbia and I want to note that joining me in the 
audience are a number of Councilmembers. I might miss a few, 
but they include Councilmembers Muriel Bowser, Anita Bonds, 
Mary Cheh, David Catania, Kenyan McDuffie, Vincent Orange, and 
Tommy Wells. I want to thank them for being here as well.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mendelson appears in the Appendix 
on page 62.
---------------------------------------------------------------------------
    I am pleased to testify today in support of S. 132, the New 
Columbia Admissions Act of 2013. Full and fair representation 
for the over 646,000 United States citizens residing in the 
District of Columbia is only possible through achieving 
statehood. You have my prepared statement. I want to summarize 
and make four fundamental points.
    First, that the limited home rule granted by Congress in 
1973 is inadequate and problematic. Second, that statehood is 
about restoring rights, the rights that the citizens of the 
District had before Congress took them away. Third, that this 
legislation is about providing the United States citizens of 
the District of Columbia with the same rights and privileges 
enjoyed by the United States citizens of the 50 States. And 
fourth, that the District of Columbia is in good shape and 
compares favorably to the 50 States.
    One needs to look no further than last year's government 
shutdown to see the problem with the current governance 
structure. Year after year, Congress has done little with our 
budget except add social policy riders. In 25 years since 1990, 
Congress has adopted our appropriation only three times before 
the start of the fiscal year. We cannot even get Congress to 
change the dates of our fiscal year, which we know would save 
money, as well as align with the academic calendar of our 
school year. And then last year, not for the first time, we 
struggled with shutdown because of a non-local fight in 
Congress.
    We could instead look at our legislative process. It has 
been over two decades since Congress disapproved a bill adopted 
by the District Government. And still, every bill goes to 
Congress for a 30- or 60-day layover and these are 
congressional days, so we never know how long it will actually 
take, for a bill to become law.
    The Council adopted fine proportionality legislation for 
our criminal code on November 1, 2012, and the bill did not 
become law, that is, passed the congressional review process, 
until June 11, 2013, over 6 months later. Our General Counsel 
has estimated that at least 26 percent of our legislative 
measures are solely the result of the congressional review 
process.
    Or we could look at the details of government. When the 
District's former Chief Financial Officer (CFO), Natwar Gandhi, 
announced his retirement, the national search quickly revealed 
that the CFO salary was too low. We have shown ourselves to be 
a responsible government, providing appropriate salaries for 
national figures like our Public Schools Chancellor and our 
Chief of Police, but we are helpless to do anything about our 
CFO's salary. Only Congress can set his salary.
    We cannot fix inequities in our criminal sentencing without 
the approval of the United States Attorney General, and we 
cannot update the limits on small claims, that is the Small 
Claims Court, or strengthen our Anti-Strategic Lawsuit against 
Public Participation (SLAPP) law because we cannot legislate 
the judicial process. Current home rule is inadequate.
    Nowhere in the history of the Founding Fathers is there 
evidence that it was their express intention to deny the 
citizens of the national capital the rights enjoyed by the 
citizens of the rest of the Nation. Rather, the Founding 
Fathers' focus was on having a permanent seat of government 
under Federal control.
    When the District of Columbia was selected, the residents 
thereof, principally but not entirely in Georgetown and 
Alexandria, enjoyed all the benefits of statehood, fully 
controlling their affairs and electing representatives to 
Congress. By seeking statehood, today's citizens of the 
District ask for a restoration of our rights, something the 
Founding Fathers never intended to take away.
    For me, the bottom line for supporting this bill is that 
only statehood can provide the United States citizens of the 
District of Columbia with the same rights and privileges 
enjoyed by the United States citizens of the 50 States. We have 
sought incremental gains since the 1973 Home Rule Act. Besides 
the fact that much of what we have asked for--take budget 
autonomy for instance--is widely supported, these gains take 
years; no, decades, and most have yet to be granted.
    But incrementalism still would leave us short. As other 
witnesses have and will testify, we pay our dues, our taxes, we 
go to war, and District citizens have done everything asked of 
United States citizenship. Only statehood gives us all the 
rights and privileges in return.
    For many years, opponents of statehood claimed that the 
District is not worthy of the self-governance that comes with 
statehood. But now we have a track record and it is very good.
    For 17 consecutive years, we have ended our fiscal year 
with a budgetary surplus. We have grown our fund balance, which 
is one of the healthiest of State governments in the Nation. 
Our bond rating is good. We manage our capital budget better 
than Congress has required of us in the Home Rule Act. Our 
retirement accounts are second best in the Nation. Our city is 
growing in population, not declining, and our per capita income 
is among the highest. We are healthy. We are responsible.
    We have sufficient population and resources to support 
State government and to provide our share of the cost of the 
Federal Government, a standard Congress has set forth in the 
past for statehood.
    Throughout the world, there are only one or two national 
capitals--and none in the free world--where citizens do not 
enjoy a vote in the national legislature. We, the District of 
Columbia, are unique in this regard. It is a distinction we do 
not want and a stain on our Federal system.
    The Council appreciates the Committee's consideration of 
the New Columbia Admissions Act of 2013, and urges that it be 
brought before the Committee for action and before both houses 
for a vote.
    I also appreciate the Committee's past support for the 
District and look forward to continuing our working together in 
the future, I hope with a newly-elected Senator of our own, on 
the Committee, from the State of New Columbia. Thank you.
    Chairman Carper. Chair Mendelson, thanks so much and thanks 
for that summary. That was a good one.
    Mr. Mendelson. Thank you.
    Chairman Carper. I want to just start, before I ask a 
question, when Joe Lieberman stepped down and basically said to 
me, It is all yours, I thought of all the challenges we faced 
with respect to protecting our homeland, cyber challenges, 
terrorist attacks, Jihads, fear of someone blowing up our 
chemical facilities, wasteful spending, and huge budget 
deficits, a postal system that is sort of twisting in the wind 
these days because of inaction of the Congress. Those are all 
issues that I considered, worked on with Senator Lieberman, 
before Dr. Coburn and Senator Collins as well.
    The press would say to me, What do you want to focus on as 
a new Chairman of the Homeland Security and Governmental 
Affairs Committee? The items I just mentioned are really what I 
thought about and this is not the issue that came to mind. I 
noticed that this is something that Senator Lieberman felt 
passionately about and he has been good to continue to mentor 
me from time to time.
    Congresswoman Norton has as well. What I have finally done 
is related the issue of equity for those who live in the 
District of Columbia with my core values and the way that I was 
raised, I spent about 23 years of my life in the Navy, active 
and reserve as well.
    But the way that I was raised and trained as a leader was 
basically: We ought to figure out the right thing to do and try 
to do it. We should treat other people the way we want to be 
treated. We should focus on excellence in everything we do. I 
like to say, if it is not perfect, make it better. In the 
Preamble of the Constitution, it says, In order to form a more 
perfect union, and that is why we have amended the Constitution 
thousands of times.
    And finally, the fourth core value I would mention is just 
the notion of not giving up. If you are convinced you are 
right, just do not give up. So with that thought of mind, that 
is really sort of like my moral compass, those four values. Say 
what should we do in this instance? We need to do something. We 
can do better. We can improve on the status quo.
    I am not going to suggest we are going to move this piece 
of legislation through Committee and through the House and the 
Senate this year, but we do need to restart our conversation. 
And my hope is, if nothing else happens from this hearing 
today, that we are going to do that. We appreciate your helping 
us to do so.
    I want to come back, I think it was something that you 
said, Chairman Mendelson, near the end of your remarks. You 
talked about how the United States, the District of Columbia, 
Washington, DC, we may be the only nation among the democratic 
nations of the world, in which we do not allow our residents of 
our capital city to have the ability to vote and to be heard in 
their national assemblies, national elections. Did I hear you 
right on that?
    Mr. Mendelson. Yes. I believe there are only one or two 
national capitals in the world, and they are not free 
countries, where the citizens do not have a vote in the 
national legislature. We are unique in that regard.
    Chairman Carper. I wonder if there was a time when we were 
not unique, when other democratic nations had a system similar 
to what we have. Anyone know whether that was ever the case?
    Mr. Mendelson. Ever? If you are talking about 19th Century, 
I suspect it would be that we were not alone then. But, 
democracy has changed across the globe and we are alone now.
    Chairman Carper. In my previous role as Governor, I 
remember presiding at any number of cabinet meetings and we 
were talking about a particular issue or challenge we faced in 
Delaware, and I would say to my cabinet secretaries, somebody 
in some other State has dealt with this problem or issue. They 
figured out how to solve it. And what we need to do is to find 
that State, find that person, and see what they have done.
    Are there any national capitals in other, if you will, 
democratic nations that have dealt with this issue and maybe 
from whom we could learn something?
    Ms. Norton. Mr. Chairman?
    Chairman Carper. Delegate Holmes Norton?
    Ms. Norton. Yes.
    Chairman Carper. Congresswoman.
    Ms. Norton. It has not occurred to most countries if they 
were, in fact, giving the vote not to give it to their capital. 
So this has not been a matter that some countries have 
gradually realized that as the vote, in fact, was widened, it 
ought to also include their own capital. Of course, most of the 
countries are parliamentary governments, but I do not think 
that had very much to do with it.
    I think this is an American anomaly. It is a violation of 
international law. It violates treaty that we have signed and 
there is no way around it, and it is not because we are among a 
number of outliers and everybody else had to also incrementally 
correct this injustice. This anomoly came at the birth of the 
Nation and it came because of an accident of history when the 
Continental Congress got chased out of Philadelphia and the 
Framers did not quite know what to do, and they said, OK, let 
us just make this a Federal District.
    Mr. Gray. Mr. Chairman, I get the opportunity to meet with 
a lot of international delegations. They come to the Wilson 
Building, our city hall, and in virtually every instance, we 
have had an opportunity to talk about the political status, 
talk about democratic principles, et cetera. And people are 
absolutely astounded that the capital of the United States of 
America does not accord democracy, does not accord a vote, does 
not accord representation to the 660,000 people who live here.
    Again, I have not encountered anyone in the free world that 
does not have representation in their national legislative 
body. The same thing with the budget issues and the legislative 
issues. People really are aghast that we have to send our local 
budget, we have to send all of our local laws to the national 
legislature for approval.
    The example that I give is having to send--this has 
happened when I was the Chair of the Council. We changed the 
term ``handicapped'' to ``disabled,'' which is pretty minor, it 
seems to me. Important to people who are affected, obviously. 
But why should we have to send something like that to the 
Congress of the United States or approval.
    On its face, that is obviously, and those are the things, 
and there are so many other things that we have to send up here 
in terms of our local laws that really should be left to the 
approval of the people of the District of Columbia.
    Chairman Carper. All right. Thank you. Dr. Coburn raised a 
number of questions or concerns about the legislation that we 
have introduced, I have introduced and others have cosponsored. 
One of the concerns that he raised dealt with the 23rd 
Amendment to the Constitution. I will not attempt to 
paraphrase, but basically he said, you cannot have the 23rd 
Amendment to the Constitution and have the District of Columbia 
with full rights of statehood. Would you all just speak to that 
for us just briefly, please? Congresswoman?
    Ms. Norton. Mr. Chairman, Dr. Coburn mentioned any number 
of issues that the District is fully aware it would have to 
come to grips with. It certainly would expect to have a right 
to vote, which took a constitutional amendment, to remain in 
force, until the statehood Bill is passed.
    But as you said, Mr. Chairman, this is a threshold hearing. 
You are restarting a conversation. This is a serious issue. We 
had no intentions to lay before you all of the transition 
issues that would be very important were this a hearing further 
along the way.
    There has been almost an entirely new Senate since this 
bill was last discussed. We ought to deal with first things 
first and the 23rd Amendment, which is a very technical issue 
but one we are fully prepared to deal with, we fully 
understand, would no longer be necessary and our bill would 
provide for that.
    Chairman Carper. The 23rd Amendment, as I recall, basically 
says that the District of Columbia will have three electoral 
votes.
    Ms. Norton. Yes. The 23rd Amendment in 1960 gave the 
District the right to vote for President. We went that long 
without the right to vote for President. And, of course----
    Chairman Carper. Hold on. The concern that he has raised is 
that if we are not careful, we cannot only have the 23rd 
Amendment to the Constitution, but also a State with also the 
ability to vote twice. So what he raised is a legitimate 
question, but I think there could be a problem with the 
sequencing.
    If we, for example, were to repeal the 23rd Amendment with 
the expectation that we are going to pass some kind of 
legislation that would give the residents of the District of 
Columbia the chance to vote, like in a State, and that never 
happens, then we would have a problem.
    Ms. Norton. The timing would have to be simultaneous.
    Chairman Carper. Yes, there you go. I think Dr. Coburn 
raised an issue about Federal funds, and I have heard this from 
others. I think, Mayor, you spoke to this, I believe. Just 
revisit what he said, share what you heard him say, and then 
just respond to that, if you will.
    Mr. Gray. I think he used the number $674 million, which I 
would like to see the details of, Mr. Chairman. We follow that 
fairly closely and, when you look at Medicaid, every State gets 
Medicaid, like Delaware gets Medicaid and TANF and Federal 
highway funds. We do receive some special funds. We have had 
support for our education programs. We have had support, a very 
small amount of support, for our HIV/AIDS programs.
    But when you total up those funds they do not come anywhere 
near $674 million. Let me underscore a principle for us. We are 
not asking for special treatment. We are asking for the same 
treatment that all Americans get, and that is to be able to 
make decisions for ourselves, to be able to determine how we 
spend our money, and then be accorded the same rights as other 
Americans.
    If you look at our budget, the 2011-2012 billion dollar 
budget, almost $7 billion which we raise locally, when you look 
at the Federal funds that are contained there, you are not 
going to find that being largely a picture that is very 
different than any other of the 50 States.
    Chairman Carper. OK.
    Mr. Mendelson. If I could add to that?
    Chairman Carper. Please.
    Mr. Mendelson. I do not think Senator Coburn was saying 
this, but I know some folks have said that they think that our 
budget, the money that the District uses, is entirely Federal 
dollars, and it is not. We raise something like $6 billion 
annually from local taxes and fees, just like any other 
jurisdiction does, and those are our local dollars. So if there 
is any misunderstanding, there is a substantial portion of our 
budget that is local dollars.
    I addressed this in my prepared statement. We do get 
additional dollars that are Federal and almost every dollar is 
through a Federal subsidy program that all the States get, 
probably the biggest being Medicaid. That is substantial. But 
every State gets it. So we are not unique in that regard. We 
use to get a Federal payment. We got that Federal payment for a 
time, but we have not gotten that Federal payment for many 
years. It was something like a half billion dollars and then it 
was discontinued in the late 1990s.
    And as the Mayor put it, we are not looking for special 
treatment. We are looking for the same treatment that every 
State has. But I would note, and this is also in my prepared 
statement, that there are some Federal programs such as the 
Payment in Lieu of Taxes (PILOT) program. The District gets 
something like $18,000 a year compared with, for example, $28 
million a year for Alaska or $34 million a year for Arizona.
    And then there is also a Federal Mineral Royalties program. 
Wyoming got $932 million last year. We are not asking for that. 
So there are Federal payments to States and we are not asking 
for that. But that is not unusual, Federal payments to the 
States.
    Chairman Carper. All right. When I was 29 years old, I got 
elected to State treasurer. I was just out of the Navy, got a 
Master of Business Administration (MBA), and nobody wanted to 
run for State treasurer in my State as a Democrat, so I got to 
run because there was nobody who wanted to run. And we, at the 
time, we were the best in the country. Delaware was the best in 
the country in over-estimating revenues and under-estimating 
spending. Not a good combination.
    We had no pension fund, we had no cash management system. 
In order to raise money so we could be able to meet payroll and 
pay pensions, we would issue taxes and revenue notes, taxes and 
revenue notes just for short-term financing. We ended up with 
nobody who would lend us any money, we were closed out of 
credit markets. We ended up with the worst credit rating in the 
country.
    From that, Pete duPont became Governor. I served as State 
treasurer. I thought he was an excellent Governor. And we now 
have triple A credit ratings across the board and, I think, 
respected by most financial folks in terms of our economy and 
budget and fiscal policies.
    It was not all that long ago that the District of Columbia 
labored in terms of managing its own affairs, and it was not 
all that long ago, as I recall, we had a control board that was 
put in place to help manage the District of Columbia. And today 
when I hear you talk about the District of Columbia in terms of 
your economic growth and vitality and your budget reserves and 
level of employment and people coming into the city, it is 
rather an extraordinary turn around.
    I am going to ask Chairman Mendelson, then the Mayor, and 
Congresswoman Holmes Norton just to take maybe a minute apiece 
and say, why did that happen? Why did that transform? I think 
in our State it was leadership. I think leadership was the key. 
I think that is the key in most areas, but go ahead, Mr. 
Chairman.
    Mr. Mendelson. Well, I would agree that it was leadership, 
but we have put a number of practices in place and I think that 
we have at this point a culture in the government about 
financial discipline. So sometimes we have arguments, like with 
our retirement fund, which is pretty good, second best in the 
country, whether we should make it better or just accept it at 
second best out of all the States and all the cities and 
counties.
    As I said, we put a number of practices in place and we 
value very much our financial health. It allows us a lot in 
terms of policymaking because the resources are there. And 
further, I think, is the reason why the city is growing in 
population, because, I think, people are attracted to a city 
that is healthy financially.
    Chairman Carper. OK. Thank you. Just very briefly, Mayor, 
please.
    Mr. Gray. I want to agree with the Chairman. First of all, 
I think it has become now, since the mid-1990s, a part of the 
culture of the District of Columbia, that it is hugely 
important for us to be fiscally responsible. We did have a 
control board for several years that essentially became 
dormant, I think, in 2001 and 2002.
    We have continued, and Chairman Mendelson pointed this out, 
with a Chief Financial Officer who essentially is independent. 
There are days when I think that is a vestige of control that 
we should not have; on the other hand, I think it is very 
helpful on many days because we cannot pass a piece of 
legislation without there being a fiscal impact statement. In 
essence, the structures that we have in place now, the rigorous 
structures we have in place, prevent us from becoming fiscally 
irresponsible.
    One of the things that we do is we work very closely with 
the rating agencies, with Moody's and Standard & Poors and 
Fitch, and we are very proud, Mr. Chairman, that we have now 
reached on our income tax secured bonds, we have now reached 
triple A rating, which is unprecedented in the District of 
Columbia, and frankly imbues what we do every day with the 
pride of being able to demonstrate that we are a place that 
takes fiscal responsibility seriously.
    I do not think the District of Columbia will ever go back 
to a time when irresponsible decisions around money were made, 
and that finds its way into our decisions about legislation 
and, obviously, about budgets. We have passed very responsible 
budgets and, again, to point out, we have done it on time. We 
passed our fiscal year 2015 budget, which begins October 1. 
That budget was passed in July and now is just sitting.
    Chairman Carper. OK. Thank you, sir. And Congresswoman 
Holmes Norton, would you just wrap this up for us briefly, 
please?
    Ms. Norton. In a word, why did this happen or how did this 
happen? I would summarize it by saying local prudence. We were 
not the first city to have a control board. New York, 
Philadelphia both had control boards. In the District, it will 
focus your mind. We are the only city in the United States as a 
result that has a CFO, the kind that the Mayor has spoken of, 
and the legislation that we designed in this Congress almost 
makes it impossible for the District of Columbia ever to need a 
control board again. And that is why you see balanced budgets 
and surpluses.
    Finally, if I could just thank you for the principled 
approach, Senator Carper, that from the very first time we sat 
down with you, you have taken to your Chairmanship of this 
city, and you mentioned Senator Lieberman who you regard as a 
mentor who took us with great passion through several attempts 
to get statehood. And I must say, if he is your mentor, you 
are----
    Chairman Carper. He says we mentor each other.
    Ms. Norton. OK.
    Chairman Carper. Probably giving me too much credit.
    Ms. Norton. Let us call it the Joe Lieberman tradition. And 
how much we appreciate that you have afforded us this hearing 
and given us, what I must tell you, renewed energy in the city 
to do what we have to do to meet what you have already done in 
affording us this hearing. Thank you very much, Mr. Chairman.
    Chairman Carper. Well, let me just say, in full disclosure, 
I may just do a quick segue here, I am a huge baseball fan, 
huge Detroit Tigers fan, and if the Nationals end up in the 
World Series with my Tigers, I hope that renewed energy thing 
falls a little short of the ninth inning of the seventh game of 
the World Series.
    Mr. Gray. Not too late to become a Nationals fan this year.
    Chairman Carper. The Phillies fans in my State would kill 
me. [Laughter.]
    I am reminded here, talking about the turn around in the 
District of Columbia in the last 20 years, it is really pretty 
remarkable. Delaware had a pretty remarkable turn around as 
well wherein during the late 1970s, 1980s, and even more 
recently, it reminds me of a story, and I will close with this. 
During the Civil War, the North was not doing well and Lincoln 
kept looking for the right military leader for our country. He 
would try this person for a while and that person for a while, 
and finally he heard that Grant was doing pretty well in his 
assignments, so he made him the military leader of our Union 
forces.
    Folks on the Lincoln Cabinet did not like it very much. 
Some regarded Grant as a drunkard, an alcoholic, just drank too 
much. And in one particular Cabinet meeting, President Lincoln 
called them to order and the Cabinet members were prepared to 
pounce on Grant and just call him all kinds of things and say 
the President should get rid of him, fire him.
    And at that time, the North was starting to move and doing 
a whole lot better. Lincoln listened to them for a while and 
just cut them off. He finally cut them off and he said--this is 
sort of looking at how much better you guys are doing in the 
District of Columbia. He listened to them for a while and he 
finally cut them off and he said, Find out what Grant is 
drinking and give it to the rest of my generals. [Laughter.]
    So you all are obviously doing some good things and we 
applaud those. My hope, at the very least, and I hope we can do 
better. I hope this addresses some of the very real inequities 
that we have discussed here today. Dr. Coburn is a highly 
principled person, really understands fairness and equity, and 
I think most of my colleagues know in their hearts that what is 
going on here, what has been going on here for a long time is 
just not fair and equitable and there is something we ought to 
do about it. And hopefully, with your help and encouragement, 
we can find a good path to get there.
    With that, I am going to recess the Committee just for a 
moment and we will assemble with our second panel. Again, thank 
you all for joining us today.
    Mr. Gray. Thank you very much, Senator.
    Mr. Mendelson. Thank you, Senator.
    Chairman Carper. Please take your conversations outside the 
room, if you would. Thanks so much.
    Beginning now the second part of our hearing. Welcome our 
second panel. Very nice to see some of you I have known for a 
million years, well, maybe half a million. But it is great to 
see you all and to welcome those that I have never had the 
privilege of meeting before. I am going to take a moment just 
to briefly introduce our witnesses. It could be a long 
introduction. It is a distinguished panel. But let me just do 
this briefly so we can hear from you.
    First we are going to hear from the Honorable Viet Dinh. 
Professor Dinh, when I saw your name, I spent some time over in 
Southeast Asia during the hot war of a few decades ago. Where 
is your family from?
    Mr. Dinh. I was born in Saigon and I grew up in Vietnam. 
Thank you for your service to our country here and my country 
there.
    Chairman Carper. And we thank you for yours. Thank you. 
Professor Dinh is a founding partner of Bancroft, LLC. He is 
also a professorial lecturer in law and distinguished lecturer 
in public policy at Georgetown University where he specializes 
in constitutional law and corporate governance. He has 
previously served as U.S. Assistant Attorney General for Legal 
Policy from 2001 to 2003 where he played a key role in 
developing legal policy and issues to combat terrorism.
    Next we will hear from my friend, the Honorable Alice 
Rivlin. Ms. Rivlin is a senior fellow in the Economic Studies 
Program at Brookings, a visiting professor at the Public Policy 
Institute of Georgetown University, and the Director of the 
Engelberg Center for Health Care Reform. She is an expert on 
fiscal and monetary policy and also chaired the District of 
Columbia's Financial Management Assistance Authority, generally 
known as the control board, and has held many senior service 
positions. It has always been a great joy to serve with you and 
to see you and to hear from you today. Thank you, Alice.
    Next witness is Wade Henderson. Mr. Henderson is President 
and Chief Executive Officer (CEO) of the Leadership Conference 
on Civil and Human Rights in the Leadership Conference 
Education Fund. He is also a professor of public interest law 
at the University of the District of Columbia. Mr. Henderson is 
well known for his expertise on a wide range of civil rights, 
civil liberties, and human rights issues.
    Next we have Mr. Roger Pilon? Pilon. Is that a French name?
    Mr. Pilon. It is.
    Chairman Carper. Bienvenue. Dr. Pilon currently holds the 
B. Kenneth Simon Chair in Constitutional Studies at the Cato 
Institute, where he is also the Vice President for Legal 
Affairs. As a noted constitutional scholar, Dr. Pilon gives 
lectures and participates in debate regarding the Constitution 
at universities across our Nation.
    Our next witness is the Honorable Paul Strauss. As a Senior 
Shadow Senator for the District of Columbia, Senator Paul 
Strauss advocates within the Senate on behalf of the citizens 
of the District of Columbia for the District's admittance to 
the Union as the Nation's 51st State. Prior to being elected, 
Senator Strauss served in several locally elected government 
positions and is a founder and principle of Law Offices of Paul 
Strauss and Associates. Welcome.
    Our final witness today is the Honorable Michael D. Brown. 
Senator Brown was elected as the District of Columbia's Shadow 
Senator in 2006 and in this role, he lobbies elected officials 
in Congress on behalf of the citizens of the District of 
Columbia In 2009, Senator Brown launched the nationwide Teach 
Democracy, a District of Columbia organization, to inform the 
country of the District of Columbia's struggles for statehood.
    Thank you all for joining us today. We look forward to 
hearing from each one of you. I would ask you, again, we are 
going to go into session. In fact, I think we are in session 
now. We are going to start voting within about an hour and we 
have a series of votes and I do not want to miss them. So I am 
going to ask you to stick pretty close to the 5-minute limit 
that we have asked you to use. Your entire statement will be 
made part of the record. But if you go much beyond that, I am 
going to have to ask you just to halt. I do not want to do 
that, though. All right. Mr. Viet Dinh, we are delighted to 
hear from you first. Thank you. Welcome.

 TESTIMONY OF THE HON. VIET D. DINH,\1\ PROFESSOR, GEORGETOWN 
                     UNIVERSITY LAW CENTER

    Mr. Dinh. Thank you, Mr. Chairman. I have been asked to 
advise on the constitutionality of the New Columbia Admission 
Act, and I will limit my comments here to those legal and 
constitutional matters and not to the Act's wisdom as a policy 
matter. My conclusion is that the courts would likely decline 
to adjudicate any constitutional challenge to the Act, and in 
all events, were to reach the merits would likely hold the Act 
to be constitutional.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dinh appears in the Appendix on 
page 74.
---------------------------------------------------------------------------
    As an initial matter, the courts would likely avoid ruling 
on the merits of any constitutional challenge. In many ways, 
Congress's admission of new States is the paradigm of a 
political question that is not justiciable in courts. The 
Constitution commits the task exclusively to Congress under 
Article IV and it is difficult to imagine judicially manageable 
standards for assessing the legality of the admission by this 
chamber.
    And any decision would disrespect the political branches 
while risking conflicting judgments on a State's existence. And 
here, I think history is very helpful. When the 1846 
retrocession of Arlington and Alexandria from the District to 
Virginia was finally challenged some 40 years later, the courts 
avoided ruling on the merits on non-justiciable local question 
grounds. But it is likely that the courts would do the same if 
faced with the challenge of the admission of New Columbia.
    In all events, courts reaching the merits would likely find 
the New Columbia Admission Act to be constitutional, in my 
opinion. Under the New States Clause of Article IV, Congress 
has the constitutional authority to accept new States through 
simple legislation. This is how States are constitutionally 
admitted. Aside from the original 13 colonies, the 37 remaining 
States were all admitted through simple legislation pursuant to 
Article IV.
    And quite analogous to the current situation, Congress 
formed the State of Ohio with the Enabling Act of 1802 from the 
eastern portion of the Northwest Territory, which territory 
itself came from lands that were previously ceded to the 
Federal Government from the other States.
    Congressional authority under Article IV to admit new 
States is broad and subject to just three requirements within 
the Constitution. First, Congress must guarantee new States a 
Republican form of government. Second, new States formed from 
within or combining existing States must receive State 
legislature approval. And third, new States must be admitted on 
an equal footing with existing States. The New Columbia 
Admission Act meets each of these three constitutional 
requirements.
    Adjudicating courts would not likely find any contravening 
constitutional provisions. The District clause under Article I, 
Section 8, contemplates an exclusively Federal district and is 
satisfied because the Act would preserve an exclusively Federal 
District not larger than 10 miles square, the requirement of 
Article I, Section 8, Clause 17.
    The district clause actually supports the Act because it 
grants Congress sweeping and exclusive authority over the 
Federal District, and thus affirms congressional authority to 
alter the size and shape of that district. In fact, again, 
history shows that Congress can alter the district. The first 
Congress altered the Southern boundaries of the original 
District of Columbia, and as I noted before, in 1846, Congress 
returned Alexandria and Arlington to Virginia.
    Likewise, those historical examples, it seems to me, 
confirms Congress's action here, which at its base, only alters 
the core size of the District and not exceeding 10 miles 
square. Some also have interposed objections based on the 23rd 
Amendment, but I believe the 23rd Amendment, which allows the 
District of Columbia to participate in the Electoral College, 
is not violated just because the Federal District is smaller.
    Although granting the First Family and a few other citizens 
that remain in the shrunken Federal District three electoral 
votes would, I think, indeed be bad policy, the Constitution 
does not prohibit it. It would be better, I think, to repeal 
the 23rd Amendment concurrent with admission of New Columbia, 
but it is not a constitutional requirement, nor will courts 
likely require Maryland's consent just because the land was 
part of Maryland before 1790.
    The Constitution requires a State's consent when a new 
State is created from within an existing State's jurisdiction. 
But the land that would form New Columbia is not within and no 
longer is within Maryland's jurisdiction. Maryland lost that 
authority as soon as the Federal Government accepted Maryland's 
absolute cessation of the land.
    While the Act presents a handful of other concerns, for 
instance, New Columbia would have a uniquely Federal character, 
as some have noted, it would have an outsized influence in the 
Senate and would lack the internal diversity of interests that 
most view as ideal characteristics of statehood. These are 
policy issues for Congress's, your, consideration. In my view, 
the mechanism is constitutional and is for this Committee and 
Congress to decide whether or not it is wise. Thank you.
    Chairman Carper. Professor Dinh, thank you so much. Dr. 
Rivlin, welcome. Great to see you. Please proceed.

TESTIMONY OF THE HON. ALICE M. RIVLIN, Ph.D.,\1\ SENIOR FELLOW 
 AND LEONARD D. SCHAEFFER CHAIR IN HEALTH POLICY STUDIES, THE 
                     BROOKINGS INSTITUTION

    Ms. Rivlin. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Rivlin appears in the Appendix on 
page 87.
---------------------------------------------------------------------------
    Chairman Carper. You have probably testified before just 
about every panel in the House and Senate, but I do not know if 
you have ever testified before this one.
    Ms. Rivlin. Yes, I have.
    Chairman Carper. Oh, good. I should have known.
    Ms. Rivlin. I am delighted that you are holding this 
hearing, Mr. Chairman. I think it is high time that you brought 
attention to this outrageous situation that citizens of the 
District of Columbia find themselves in. We are not, in fact, 
full citizens with full self-governing rights. I think this is 
both an anomaly in a great democracy and an anachronism and I 
hope this hearing will start the process leading to statehood 
for the District of Columbia.
    It is hard to explain to anyone why a nation that sees 
itself as a beacon of democracy keeps the more than half-
million inhabitants of its capitol city from normal 
participation in the governance of the country. We are very 
proud of our Constitution. We fight wars in faraway places to 
guarantee the democracy of others.
    My favorite metaphor is that in television pictures you see 
of long lines of people in Afghanistan or Iraq standing waiting 
to vote because our country has guaranteed them the right to do 
that, and yet, those networks never mention the fact that right 
here in the District of Columbia we cannot vote for full 
representation in our national legislature.
    As has been pointed out, we pay taxes, we serve in the 
armed forces, we do everything that other citizens do, if 
necessary die in foreign wars, but we do not have the full 
rights of democracy. And this is also a very strange 
anachronism. I think two centuries ago, despite what Dr. Coburn 
said, one would not have expected this little enclave to be a 
vibrant urban economy. There were not very many people here.
    Moreover, at the time, the concept of voting rights was 
very narrow. Most of the people who work here would not have 
been able to vote anyway because they were female, because they 
were slaves, because they were African-American or other people 
of color, or because they did not own property.
    But over the period of the last couple of hundred years, 
our concept of what democracy is has broadened and voting 
rights have been achieved for all adult citizens. And at the 
same time, this little enclave has become a vibrant city with a 
growing population. Various statistics have been quoted, like 
we have more people than Vermont and Wyoming. The one I like is 
we have an economy that is larger than the gross domestic 
product per State of 16 other States. We are well up there as 
economies go. And one of the smaller ones is Delaware.
    But let me speak particularly----
    Chairman Carper. When you describe that, in boxing we have 
this saying like punching above our weight. Sort of reminds me 
of this. [Laughter.]
    Ms. Rivlin. Absolutely. Let me speak particularly to the 
fiscal viability of the District of Columbia because I had the 
honor of chairing the infamous control board to which reference 
was made earlier. And indeed, in the mid-1990s, the District of 
Columbia, like many other cities, was in pretty bad fiscal 
shape. We had lost much of our middle class, the population was 
declining, we had distressed neighborhoods, we had a declining 
tax base, and we had some mismanagement into the bargain.
    The situation was not as serious as facing Detroit at the 
moment, fortunately, but it was serious and it warranted a 
Federal intervention in the form of a control board. The 
Clinton Administration worked with Delegate Norton and with the 
Republican Congress. It was a very bipartisan thing to put in 
place, this board, and restored the city to fiscal health.
    Since then, we have done very well. The combination of 
fiscal reform, the Chief Financial Officer, which was in the 
control board legislation and remains, and a recovering economy 
and building traditions of fiscal discipline in the city have 
given us a serious turn around. Population is increasing.
    Our population grew faster than any other State except 
North Dakota last year, and we do not have oil. The city 
weathered the storm of the great recession better than most 
cities. It has balanced its budget every year for the last 17 
years. So I believe there is no longer any reason to worry that 
the District would not be a fiscally viable State.
    Finally, there are other steps toward fiscal autonomy and 
legislative autonomy and voting representation in the Congress 
that the Congress could say. When Dr. Coburn quoted what I had 
said in 2009, he omitted the first sentence that said I was in 
favor of statehood, but I did point out that there were some 
other high priority things that could be done, some of which 
actually have been done, but some remain.
    So in sum, I commend the Committee for holding this hearing 
and I urge Congress to get on with statehood for the District 
of Columbia. Thank you.
    Chairman Carper. Thanks so much. Thanks for being here 
today and for your leadership of the control board all those 
many years ago. Mr. Henderson, great to see you. Welcome. 
Please proceed.
    Mr. Henderson. Pleased to see you.
    Chairman Carper. Let me say for the first two witnesses, 
you were very good at staying close to your 5 minutes. I 
applaud you for that and you set a good example for the rest of 
us.
    Mr. Henderson. She set an excellent example.
    Chairman Carper. There we go.

     TESTIMONY OF WADE HENDERSON,\1\ PRESIDENT, LEADERSHIP 
              CONFERENCE ON CIVIL AND HUMAN RIGHTS

    Mr. Henderson. Good afternoon, Mr. Chairman, and thank you, 
your Ranking Member Senator Coburn, and Members of the 
Committee for the opportunity to speak today in support of the 
New Columbia Admission Act. I am here today, of course, as 
President of the Leadership Conference on Civil and Human 
Rights, a coalition of more than 200 national organizations 
working to build an America as good as its ideals. You have 
also noted that I am the Joseph L. Rauh, Jr. Professor of 
Public Interest Law at the University of the District of 
Columbia. It is an honor to be here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Henderson appears in the Appendix 
on page 90.
---------------------------------------------------------------------------
    Now, I would like to speak about this bill today, both as a 
lifelong civil and human rights advocate as well as a native 
Washingtonian. This issue means a great deal to me on a very 
personal level, and I would like to focus my remarks primarily 
in those terms.
    As a civil and human rights advocate, I have devoted much 
of my life to speaking out on Capitol Hill on behalf of my 
fellow Americans, and throughout the course of my career, I 
have seen changes that have made our Nation a better, stronger 
place, a nation more fully aligned with its founding 
principles. Together, we continue to break down barriers to 
equality and opportunity for Americans from all walks of life.
    At the same time, our government at all levels continues to 
more closely reflect the make-up of the Nation it represents. 
And, of course, progress has never occurred in a straight line, 
but it has been undeniable, and I have great faith that it will 
continue.
    Now, I have seen this progress in Washington, D.C. as well. 
When I was born in the old Freedmen's Hospital on Howard 
University's campus, the city's hospitals were segregated along 
racial lines by law. Our nation's capital and many Southern 
States functioned under a form, a virulent form of apartheid 
that is no longer the case. LeDroit Park, where I grew up in 
the shadow of the Capitol and where I now own a home, was once 
an all-black neighborhood by law and by custom. But today, my 
neighbors include people of all races and from all around the 
world.
    Even the public accommodations of this city that we now 
take for granted, the hotels, the theaters, the restaurants, 
the private museums, the things that make Washington a 
wonderful city, were once off limits to those of us born on the 
other side of the color line. Thankfully, and I say quite 
proudly, we have moved on. Yes, Washington, D.C. has become a 
great American city.
    Yet in spite of all the progress we have seen, one thing 
has still not changed. In spite of all of my efforts to speak 
out on behalf of other Americans, I have never had anyone on 
Capitol Hill with a real ability to speak for me. For over 200 
years, my hundreds of thousands of neighbors in this city and I 
have been mere spectators to our democracy even though we pay 
Federal taxes, as you have noted, fight courageously in the 
wars in Iraq and Afghanistan, and fulfill all of the other 
obligations of citizenship, we still have no say when Congress 
makes decisions for the entire Nation on matters like war and 
peace, taxes and spending, health care, education, immigration 
policy, or the environment.
    And while we District of Columbia residents understand the 
unique location of our city and we have understood its unusual 
relationship with the Federal Government, we are not even given 
a single vote in decisions that only affect the District of 
Columbia residents alone. Perhaps the most egregious example 
occurred when the District of Columbia could not even cast a 
vote several years back when Congress decided to prevent city 
officials from using our own local tax dollars to advocate for 
a voice in our Nation's democracy.
    Taxation without representation is enough to make people 
want to dump crates of tea into the Potomac River. Now, this 
continued disfranchisement of the District of Columbia 
residents before Congress stands out as one of the most blatant 
violations of the most important civil rights that we Americans 
have, the right to vote and to have that vote count for 
something.
    Now, without the ability to hold our Nation's leaders 
accountable, all other rights are illusory. Our Nation has made 
great progress throughout its relatively brief history in 
expanding the right to vote, and in the process, it has become 
a role model to the rest of the world. Yet, one thing remains 
painfully clear.
    If citizens do not have anyone to vote for, they are not 
substantially better off than African-Americans in the South 
were prior to 1965 when President Johnson signed the Voting 
Rights Act into law, and until that vote is achieved, the 
efforts of the civil rights movement will remain incomplete.
    For those reasons, extending representation and self-
governance to the District of Columbia residents is one of the 
highest legislative priorities of the Leadership Conference on 
Civil and Human Rights, as it is for me on a very personal 
level. I know that Professor Dinh and former Director Rivlin 
have spoken eloquently and at length about the constitutional 
and economic issues surrounding the District of Columbia 
Admission Act.
    In the interest of time, I would simply like to associate 
myself with their analyses. Thank you, Mr. Chairman, and I look 
forward to your questions.
    Chairman Carper. Mr. Henderson, thank you so much for those 
words. Dr. Pilon.

  TESTIMONY OF ROGER PILON, Ph.D.,J.D.\1\ VICE PRESIDENT FOR 
  LEGAL AFFAIRS AND B. KENNETH SIMON CHAIR IN CONSTITUTIONAL 
                    STUDIES, CATO INSTITUTE

    Mr. Pilon. Thank you, Mr. Chairman. I want to thank Senator 
Coburn as well for inviting me to offer a discordant note.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Pilon appears in the Appendix on 
page 95.
---------------------------------------------------------------------------
    Chairman Carper. We are glad you could be here, though, 
nonetheless.
    Mr. Pilon. If enacted, this bill would create a 51st State 
called New Columbia from the present District of Columbia, 
leaving a tiny enclave around the National Mall as the District 
and the seat of the Federal Government. It is both 
unconstitutional and unwise. Let me summarize my prepared 
statement and ask that it be put in the record.
    As a preliminary matter, given that the District has 
existed in its present form for over 200 years, save for a 
small Virginia portion retroceded in 1847, at this point in 
time there must be a strong presumption against the kind of 
radical changes envisioned by this bill. The Framers could not 
have imagined anything like the arrangements here contemplated.
    I will summarize three constitutional objections and then 
raise a few practical problems. First, the Enclave Clause gave 
Congress exclusive authority over such district, not exceeding 
10 miles square, as may be created pursuant to it as the seat 
of the Federal Government. In 1790, Congress accepted 10 square 
miles from Maryland and Virginia ceded for that purpose.
    To be sure, the Framers set no minimum size for the 
District, and that has led this bill's proponents to believe 
that Congress, by statute, may shrink the District to this tiny 
area and turn the rest of the District into a new State. But 
the Framers' mention of ``10 square miles,'' together with 
Congress's nearly contemporaneous creation of the District from 
10 square miles, is strong evidence of what they intended and 
evidence against the tiny enclave envisioned by this bill.
    Moreover, Congress was granted exclusive authority not 
simply over the seat of the Government, but over the district 
in which the Government is seated, which for over 200 years has 
been far larger than the small area where the Government 
literally sits. This bill would strip Congress of this 
authority.
    A closely related objection, rooted in Congress's 
enumerated powers, was well-stated in 1963 by then-Attorney 
General Robert Kennedy, commenting on a bill that would have 
retroceded the District of Maryland, and I quote, ``While 
Congress's power to legislate for the District is a continuing 
power, its power to create the District by acceptance of 
cession contemplates a single act. The Constitution makes no 
provision for revocation of the act of acceptance, or for 
retrocession.''
    In short, Congress has no power to do what this bill 
proposes. Every Justice Department from the Kennedy 
Administration on that has addressed the question has concluded 
that Congress has no authority to alter the status of the 
District legislatively--save for Attorney General Holder, who 
sought a second opinion from the Solicitor General after the 
Department's Office of Legal Counsel found to the contrary.
    But second, even if Congress had such a power, it is all 
but certain that Maryland's consent would be needed. Were 
Congress to put the land Maryland ceded not to the purpose for 
which it was ceded, but to create a new State, not only would 
the terms of the original cession be violated, but so would 
Article IV, Section 3, which provides that no new State may be 
created out of the territory of an existing State without that 
State's consent.
    Congress cannot do in two steps, simply from the passage of 
time, what it would be forbidden to do originally in one fell 
swoop, namely, accept the grant for Federal purposes and then 
turn it into a State.
    Finally, the 23rd Amendment, which enables the District to 
appoint Presidential electors, poses yet another constitutional 
challenge. The tiny enclave this bill preserves as the District 
would still contain voters with constitutional rights afforded 
by the amendment. Those rights cannot be eliminated by mere 
statute, as Section 2035 seems to do. The 23rd Amendment 
authorizes Congress to direct the manner in which the District 
appoints electors, not to eliminate the District's power to 
appoint them.
    Let me conclude with just a few practical objections. As 
Madison explained in Federalist 43, a ``Federal district'', 
separate from any State, was necessary to preserve the 
independence of both, which means that any such district must 
be large enough to serve that purpose.
    It was imperative, he argued, that the Federal Government 
not be dependent on any State, and equally important that no 
State be either dependent on the Federal Government or 
disproportionately influential on that Government.
    Yet, S. 132 fails on both counts. Today Congress has 
authority over the entire District, albeit largely delegated to 
the District Government. That authority would cease under this 
bill making the Federal Government dependent on New Columbia 
for everything from electricity to water, sewer, snow removal, 
police and fire protection, and much else that today is part of 
an integrated jurisdiction under Congress's ultimate authority. 
Nearly every foreign embassy would be beyond the Federal 
jurisdiction, dependent mainly on the services of the new 
State. Ambulances, police and fire equipment, diplomatic 
entourages, Members of Congress, and ordinary citizens would be 
constantly moving over State boundaries in their daily affairs 
and in and out of jurisdictions, raising vast jurisdictional 
complications.
    But neither would New Columbia be independent of the 
Federal Government. Madison's ``multiplicity of interests'' 
defining statehood attributes hardly defines the District. 
Washington is a wholly urban, one-industry town, dependent on 
the Federal Government far in excess of any other State. 
Moreover, with Congress no longer having authority over New 
Columbia, but dependent on it, New Columbia could exert 
influence on the Federal Government far in excess of that of 
any other State, raising the kinds of problems Madison 
detailed.
    I conclude, therefore, that this proposal is not only 
unconstitutional, but impractical as well. Thank you, Mr. 
Chairman.
    Chairman Carper. Mr. Pilon, thank you very much for those 
comments. One of the things I will just telegraph, one of the 
things I like to do at hearings like this where we have 
diversity of opinion on important issues on a panel, I like to 
come back at some point in the questions and answers and say, 
if not this proposal, what makes sense and where might lie some 
consensus to address the inequity that I think we all agree 
exists.
    Mr. Pilon. I have a modest proposal along those lines.
    Chairman Carper. Oh, good. Well, I was hoping you would. We 
will come back to you. Thank you so much. Senator Strauss, 
please proceed. Again, try to hold it to 5 minutes, you and 
Senator Brown.

TESTIMONY OF THE HON. PAUL STRAUSS,\1\ SHADOW SENATOR, DISTRICT 
                          OF COLUMBIA

    Senator Strauss. Thank you, Senator Carper. I appreciate 
the opportunity to be here today. As the Shadow Senator for the 
District of Columbia, I stand in a long tradition of Shadow 
Senators representing territories in their efforts to become 
States.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Strauss appears in the Appendix 
on page 100.
---------------------------------------------------------------------------
    As the student of history that I know you are, Shadow 
Senators first were elected by the Southwest Territory, now of 
Tennessee and used several times during the pre-Civil War era 
when pro-slavery States tried to block the admission of free 
States into the Union. Most recently, the Territory of Alaska 
elected Shadow Senators who served for 3 years until the State 
of Alaska was finally admitted into the Union. I appreciate 
making us part of this historic panel.
    Let me begin briefly by answering some questions that you 
posed to the other panel. When you do not have to cast votes or 
write legislation, you have a little bit of time to do some 
research. The Republic of Argentina actually copied our 
Constitution so closely that initially they disenfranchised the 
citizens of their own nation's capital.
    They quickly realized it was a mistake, and one of the 
first things they rectified was securing full Federal 
representation for the ``Districto Federal'' and amending their 
Constitution to provide equality. Australia's capital, as well 
as the new capital of Brazil, also briefly experimented with 
political disenfranchisement and realized that it was a 
mistake. To my knowledge, the United States remains the only 
country without representation of its capital citizens.
    On a recent trip to the country of Belarus, a country that 
nobody necessarily holds out as a model of human rights, I went 
there to take my father to the land of his father and I 
participated in a meeting with our own State Department where 
we talked about political prisoners and a variety of human 
rights issues. They raised the issue of America's violating 
human rights in the District of Columbia.
    When you are being called out, and with some legitimacy, by 
the Government of Belarus, that is a problem. The amendment 
which gave us the right to vote for the President took place in 
the era of the Cold War. Khrushchev would point out that if you 
lived in Washington, D.C., you could not vote for President. If 
you lived in Moscow, you could. Sure, there was probably only 
one name on those ballots, but that was one more name than 
anybody in the District of Columbia ever got to cast a vote 
for.
    In response to Senator Coburn's comments about the 23rd 
Amendment, the last time I checked the boundaries of New 
Columbia, there really was only one family there and I think 
they vote in Chicago. But your bill includes expedited repeal 
of that amendment, so it addresses, I think in a productive 
way, dealing with that issue.
    As for embassies being outside the Federal district, I grew 
up in New York City. The United Nations is there. The State and 
city of New York are host to hundreds of embassies of foreign 
governments. Foreign governments have consular offices which 
are essentially diplomatic property in a variety of States 
around the Union.
    And the idea that somehow the United States needs to 
exclusively control its territory to protect itself is rendered 
ludicrous when you think of the most sensitive government 
institutions that are located outside the boundaries of the 
seat of government, the Pentagon, the Central Intelligence 
Agency (CIA), the National Security Agency (NSA), agencies that 
are frequently the jurisdiction of oversight hearings before 
this Committee. Not once has it ever been suggested by Senators 
from any party that their location outside of the seat of 
government hampers America's ability for those agencies to do 
heir jobs.
    Everybody recognizes, at least initially, that this is a 
great injustice, and if not this remedy, what? We have tried 
other remedies, voting rights, amendments, arguments where we 
would have voting representation in the House but not the 
Senate. Maybe the District of Columbia residents could vote on 
even-numbered legislation on Wednesdays but not on Tuesdays.
    This is the solution! It is the solution that has been 
chosen by the District of Columbia residents in a democratic 
election and it is the solution that in all frankness does most 
accurately reflect the vision of our Nation's founders. A 
Federal district remains under the exclusive control of 
Congress. Everybody who walked in this building today and 
entered this room followed Federal rules when they came in this 
building. Whether it was being security screened or the 
prohibition against bringing fruit, that was an exclusively 
Federal decision relevant to Congress's control over its own 
territory.
    The new Congress and the new Federal District will have its 
own police force, be able to maintain its own laws, and I 
promise you, the new State of New Columbia will not try and a 
collect sales tax on any meals in the Senate dining room. We 
seek only equality of our fellow citizens, the same rights as 
everybody else. And of all the arguments that people make 
against statehood, there is one, in closing, that I just want 
to say bothers me the most and that is, if you do not like it, 
move.
    Well, I came here of my own free will to pursue an 
education at one of the many fine institutions we have here, 
but I brought my daughter Abigail with me here today. With all 
due respect, she did not have a choice about living here in the 
District of Columbia. That was where her parents decided to be 
when we gave birth to her.
    By the time she is ready to make that choice, she will have 
formed bonds and put down roots. It is inappropriate to tell an 
American citizen that if you want a right you have to move, 
especially when you live in the United States of America. Thank 
you, Mr. Chairman.
    Chairman Carper. Senator Strauss, thank you very much for 
the thoughtful testimony. Senator Brown.

  TESTIMONY OF THE HON. MICHAEL D. BROWN,\1\ SHADOW SENATOR, 
                      DISTRICT OF COLUMBIA

    Senator Brown. Thank you, Mr. Chairman. I am proud to be 
the clean-up batter here, so I will try to wrap things up. I 
want to thank you. I remember the first time I ever talked to 
you about the District of Columbia statehood. You said, Push 
and keep pushing. Your cause is just and you will prevail. So I 
come here today to push.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Brown appears in the Appendix on 
page 170.
---------------------------------------------------------------------------
    My constituents have been denied their basic rights of 
citizenship and this is unacceptable. In spite of this, they 
have never shirked a single responsibility of democracy. They 
have always been exemplary citizens, paying taxes, serving in 
our military, taking on every obligation and receiving only 
partial compensation in return. I know there are many proud 
veterans on this Committee who know what it means to risk life 
and limb in defense of their country, but imagine what it was 
like to serve in a world war knowing that you did not even have 
the right to vote for President.
    I am proud to represent people with this kind of character, 
proud to call myself a Washingtonian knowing that the District 
of Columbia residents have always cared more about America than 
their own self-interests. Our Founding Fathers established this 
great nation to a sacred covenant with the people based on 
freedom, liberty, and mutual obligation.
    Although we have faithfully fulfilled our end of the 
bargain, our government has consistently failed in its 
responsibility to reciprocate and has defaulted on the solemn 
pledge of citizenship that forms the basis of all legitimate 
governments. One nation indivisible, not separate but equal. 
That is the promise of democracy and we have been denied for 
200 years.
    Once the contract has been breached, all that flows from it 
is tainted and the covenant that binds us is diminished. We are 
tired of hearing irrelevant excuses, too small, never meant to 
be, a violation of the Constitution. Insults like move if you 
do not like it, stop whining, go back from where you came only 
perpetuate the misconception that we expect to be given 
something rather than reclaiming that which is ours.
    The Framers may have given the power to Congress, but the 
right was given us by God. I am here to say enough. We have 
earned our citizenship, paid with our sacrifice, our money, our 
service to America, and the time has come to right a wrong 
which violates every principle that Americans hold dear.
    You heard testimony today using words like budget autonomy, 
legal autonomy, voting rights. Make no mistake. Only statehood 
makes us whole. Any other solution glosses over the inherent 
inequity in our subjugation and perpetuates our second-class 
citizenship. Only statehood makes us equal. Only statehood 
resolves the injustice that has resulted in us becoming 
colonists rather than citizens.
    You asked, what are the implications of S. 132. They are 
simple. Fulfillment of an indenture as old as America itself. 
The final righting of a wrong that has perpetuated a political 
anachronism that has outlived its usefulness by more than a 
hundred years. On this date in 1814, a member of the District 
of Columbia Militia, Lieutenant Francis Scott Key, wrote a poem 
that became our National Anthem.
    This morning, a group of veterans and District of Columbia 
citizens presented each Member of this Committee a flag with 51 
stars and the inscription, in recognition of the 200,000 who 
have served during wartime and our special connection to the 
American flag. This was done to remind members that we are 
asking for nothing more than the restoration of our rights. We 
ask for no favors, no special treatment, no dispensation. Only 
that justice of equality that democracy demands.
    You are right, Senator. Our cause is just and we will 
prevail. The President said I am for it, Senator Reid said we 
deserve it, and 80 percent of America in a nationwide poll 
said, We support it. As a child, I stood up every morning, put 
my hand over my heart and said, ``with liberty and justice for 
all.'' I believed it then, I believe it now, and I call upon 
the Members of this Committee and in both houses to make it 
true and show the same courage that the residents of the 
District have always exemplified. Not asking what is in this 
legislation for me, but rather, what is in it for our 
democracy.
    Dr. King said injustice anywhere is a threat to justice 
everywhere. And this injustice can no longer stand. Our 
democracy can no longer tolerate it. Our government can no 
longer support it. And the way to abolish it is statehood. The 
partisan politics that characterize this struggle must end. We 
must rise above the rancor and divisiveness, act selflessly to 
pass this legislation, and continue to form a more perfect 
union.
    I close by answering the question my fellow Washingtonian 
asked 200 years ago. Yes, Lieutenant, that star spangled banner 
yet waves, and it is time to add another star so that it 
finally waves for all of us. Thank you.
    Chairman Carper. Senator Brown, thank you very much. I 
think it was Senator Strauss who said something to the effect, 
if not this solution--I think referring to what we have 
introduced in the Senate with, I think, 17 cosponsors and what 
Congresswoman Holmes Norton has introduced in the House with 
over 100 cosponsors--if not this solution, then what?
    We learned here fairly early in our time in the Senate, and 
in the House as well, never negotiate against yourself. If you 
are going to negotiate with somebody, then negotiate with 
somebody who has a different point of view. So I would start 
off before I ask this question just to say, Well, for those who 
are advocates of statehood or addressing this inequity, you do 
not want to negotiate necessarily against yourself.
    But let me just ask each of you, and I will start with Dr. 
Rivlin. If not this solution, then what?
    Ms. Rivlin. I think this is the right solution. That does 
not mean that there would not be intermediate steps that you 
could take toward statehood, like budget autonomy, for 
instance. That is pretty easy and it is a good thing. But it 
does not solve the problems that we are talking about here. So 
I do not see an alternative to statehood, ultimately.
    Chairman Carper. OK. Professor Dinh, if not this solution, 
then what?
    Mr. Dinh. First of all, I just want to emphasize I do not 
have a dog in this hunt because as a lifelong Republican living 
in the District, I doubt that my vote will count for much 
anyway. So it seems to me, however, that there are a number of 
choices that the Congress or the people can make. One of those 
steps was enacting the 23rd Amendment in order to give 
Electoral College votes to the District short of statehood. 
That was a policy choice that I think was obviously the right 
decision for the country at the time.
    I do not think anything in the 23rd Amendment limits the 
Congress from pursuing the traditional route of admitting new 
States, which is, as I noted and as Roger noted, is under the 
New States Clause by simple legislation under Article IV of the 
Constitution.
    I think the easiest way to illustrate that point is to 
consider the 23rd Amendment, and this bill, were it to have 
passed in 1960 prior to the enactment of the ratification of 
the 23rd Amendment, I do not think the 23rd Amendment obviously 
has nothing to say about whether or not Congress had the power 
to enact this bill in 1960 prior to the 23rd Amendment. And the 
23rd Amendment itself does not speak to limiting the power of 
Congress in any way; rather, just simply to give the power to 
Congress of Congress to enforce the terms of the 23rd 
Amendment. So I think that Amendment does not independently add 
anything to the entire statehood legality objection.
    Chairman Carper. All right. Thank you. Mr. Henderson, if 
not this solution, then what?
    Mr. Henderson. Well, Chairman Carper, I have come to the 
conclusion that this is the only viable option that guarantees 
the right to vote for District of Columbia residents in a way 
consistent with that of other American citizens in having both 
a vote in the House of Representatives and in the U.S. Senate.
    We have concluded that this is the only approach. We have 
explored options of retrocession under the assumption that 
Congress would never provide an affirmative right for District 
of Columbia residents consistent with that principle, and the 
State of Maryland, as we have explored, not having an official 
position, but unofficially was not interested in retrocession 
for a variety of political reasons.
    We have explored options that were intermediate in step, 
providing, first, for a vote in the House of Representatives 
with, hopefully, speaking recognition in the Senate. But even 
that proposal, which was supported by Jack Kemp, Republican Tom 
Davis in the Senate, Congresswoman Eleanor Norton was subverted 
by efforts to, if you will, corrupt District of Columbia's gun 
control laws.
    Every approach that has been explored, even those that have 
been considered woefully inadequate, have been rejected by 
opponents for those who seek to block the ability of District 
residents to have equal rights. So in the final analysis, we 
have come to the conclusion that only statehood provides the 
full equivalent of rights that we believe American citizens are 
entitled to have and that those in the District have.
    I would simply close with this one fact. It is especially 
galling to know that District of Columbia residents have fought 
to bring democracy to Bhaghdad, have fought to bring democracy 
to Kabul, Afghanistan, and are yet denied that same right here 
at home, and to be questioned as we are at the U.N. conventions 
and various international gatherings, by those countries that 
seek to really highlight the contradiction between what we say 
as a Nation, and what we practice at home is profoundly 
disturbing.
    The only way to address that concern is, well, not regret 
to say--the only solution to this problem, I will say quite 
openly, is the bill that you have proposed and are supporting.
    Chairman Carper. All right. Thank you, sir. Dr. Pilon, I 
think you said you had a solution and we are anxious to hear 
it.
    Mr. Pilon. Well, a modest proposal. Let me begin on the 
point that my good friend, Viet Dinh, just made. He knows what 
it is like to not have his vote count because he lives in the 
District. I am in the same boat because I live in Maryland.
    Chairman Carper. You are not going to tell us you are a 
Democrat, are you?
    Mr. Pilon. In any event, the problem with this bill, as I 
said, is with the Constitution. It will take a constitutional 
amendment to get this bill through, and therein lies the 
problem, because we know that it is not likely to come out of 
the Congress, and if it did, the last time the Congress tried 
something along these lines, only 16 States joined on.
    Chairman Carper. But it did make it through the House and 
Senate, did it not? Did a constitutional amendment not make it 
through the House and Senate?
    Mr. Pilon. Yes. But now, given that unlikelihood let me 
come to my modest proposal. We heard the Mayor speak about 
``taxation without representation,'' and all the focus is on 
the second part of that slogan rather than on the first part. 
If we focused on the taxation part and treated the District, 
keeping it as it is, like Puerto Rico, like Guam and other 
territories, and stopped taxing the residents of the District, 
since they do not have representation, this loss of revenue 
would be a drop in the bucket to the Federal treasury in a 
country of 300 million people, but it would be a giant windfall 
of opportunity for the District, which would attract all kinds 
of business and other potential for the District, and it would 
have a tax base for itself and the independence that goes with 
that, and I should think that would be the best of all worlds 
because it is a win-win all around. Think about it.
    Chairman Carper. Let me just ask Senator Strauss and 
Senator Brown, would you just respond to what Dr. Pilon has put 
before us?
    Senator Strauss. Certainly. And I probably should not admit 
this, but for procrastinators like me, it was actually today, 
September 15, as opposed to April 15 when I paid my Federal 
taxes, and as painful as that was, what I really want is to be 
an equal citizen of this Republic, not to shirk our 
responsibilities.
    The District contributes a lot more than a mere drop in the 
bucket. Billions of dollars in Federal revenue come from 
District of Columbia taxpayers that seek not more than to be 
equal citizens. There are other solutions that have been 
discussed to the question of Federal representation, but this 
is the only solution to the question of both Federal 
representation on an equal basis and self-determination, which 
is becoming more and more important to the citizens of the 
District of Columbia.
    Senator Coburn frequently has been an advocate, and it is 
one of the things I respect about him, for fighting government 
waste and repetition. But how many times has this Committee had 
to have hearings on family court judges in the District of 
Columbia, something where no Federal interest has evolved at 
all because of the way our limited home rule is set up?
    Congress wastes thousands of taxpayer dollars doing things 
that it need not do for the District of Columbia, when it 
should be focusing on national problems. And so, this is the 
best solution because it is permanent. A constitutional 
amendment can always be repealed. It preserves a seat of 
government in the way that the Framers envisioned. And it 
provides for self-determination as well as Federal 
representation.
    Chairman Carper. Senator Brown, would you just respond to 
the proposal of Dr. Pilon, please?
    Senator Brown. Well, the only thing I have to add to what 
Senator Strauss said is that we have tried other things, 
Senator. We have been in court. We have tried the 
constitutional amendment. We decided to, a few years ago, try 
one vote method based on the Missouri Plan. We have tried 
everything else.
    So it seems to me that since equality is a prerequisite of 
our democracy, that this really is the only viable solution. 
There was even a case one time in front of the Supreme Court 
where we tried to sue on the basis of taxation without 
representation, and Justice Marshall ruled that taxation 
without representation was a catchy slogan and not a principle 
of government.
    So I do not know. We have done everything, I think, we can 
do creatively and I think as much as I admire the Framers, they 
were not particularly inclusive guys. They left out women, they 
left out African-Americans, Native Americans, and all these 
people have been brought back into the system and made whole. I 
think that the only way to do that for Washingtonians is 
through statehood.
    Chairman Carper. I am not sure who mentioned the State of 
Ohio. Professor Dinh, it was you, was it not?
    Mr. Dinh. Yes.
    Chairman Carper. Would you just revisit with us what you 
said, please, and how it might be instructive here?
    Mr. Dinh. Yes. The State of Ohio was admitted by the 
Enabling Act of 1802 from what was then Federal land, the 
Northwest Territory, I think, by simple legislation. I think 
that example I cite as an answer to the concern that Maryland's 
consent is now needed just because the original land that is 
now making up the current District of Columbia was originally 
ceded by Maryland in 1789 and accepted by the Federal 
Government in 1790.
    The argument is that despite the fact that it has been in 
Federal possession for 200 years, we still now need to relate 
back to Maryland's original possession in order to seek its 
consent. I think that is misguided just for the simple fact 
that the 200 years has convened of Federal control and 
possession, including under Article I, Section 8 of the 
District clause for the Congress to have that control and have 
absolute power to do with it as it wishes, including, in the 
first Congress in 1791 and 1846, to adjust the size of the 
District just as Congress contemplates to do with this bill.
    The second reason why I think that that objection is 
misplaced is exactly the example of Ohio, because if you will 
not recall, you were not there, I hope--the Northwest 
Territory, which originally was created by cessation of land 
and claims from the Eastern States, many of which had claims or 
the land that made up the Northwest Territory, all of those 
States ceded land to the Federal Government in order to create 
the Northwest Territory, including the State of Connecticut, 
portions of which became the State of Ohio.
    In the cession of land to the Federal Government, the State 
of Connecticut did not include any grants or approvals or 
consent for the territory later to become a State, and yet, the 
Federal Government obviously had the power later with the 
Enabling Act in order to create the State of Ohio.
    Just so here. The cession in 1788 of Virginia, in 1789 of 
Maryland of land to the United States which the United States 
accepted in 1790, did not impose any condition that is relevant 
to our discussion, and the Congress has possessed that land for 
over 200 years and it now can exercise its power under Article 
I, Section 8 in order to lessen the District, and under Article 
IV, in order to admit a new State.
    I think that is fairly simply, fairly straight forward, and 
lest we be accused of maligning the Framers, I do not think the 
Framers' statements are instructive or conclusive in this 
regard. I think the fact that the Framers themselves, who were 
sitting as legislators in 1791, adopted a bill to adjust the 
Southern boundaries of the District, show that the District's 
size and boundaries are not sacrosanct, but, rather, can be 
adjusted legislatively under Article I, Section 8.
    And also, the Framers' statements regarding the 
independence of the Federal seat are still satisfied by the 
enclave that the Act would preserve the Capitol and the White 
House and the other Federal seat. The only thing that Congress 
has done is to shrink the size of the Federal enclave.
    And again, as Dr. Pilon has noted, there is no lower limit 
to the size of the District in the Constitution. There is only 
an upper limit of no more than 10 miles square, and I think the 
Framers knew how to draw a floor just as well as it knew how to 
specify a ceiling. And the latter cannot be converted into the 
former.
    Chairman Carper. Dr. Pilon, would you just react to what 
Professor Dinh has said?
    Mr. Pilon. Yes, I would like to respond to the first point 
that he made, namely, that the consent of Maryland would not be 
required for retrocession pursuant to Article IV, Section 3, 
which provides that no State may be created out of the 
territory of an existing State without that State's consent.
    The reason it would not violate that, he says, is because 
the District is no longer part of the State of Maryland. Well, 
the problem with that is, that it is an invitation to mischief. 
Imagine this scenario. Maryland cedes the territory to the 
Federal Government for the creation of a District and then the 
Federal Government turns right around and turns that into 
another State. That would be pure mischief and it would be 
because it would be violative of the original terms of the 
agreement.
    And indeed, it would be doing in two steps what it is 
prohibited from doing in one fell swoop. And indeed, the 
Supreme Court just decided an analogous case along those lines, 
the Brandt decision, Brandt v. United States, in the term just 
ended. That is the Rails-to-Trails decision, and that was an 
eight to one decision and the parallel here is almost exact.
    Chairman Carper. All right. Someone mentioned that earlier 
when there was an effort to pass a constitutional amendment, 
which actually was approved in the House and the Senate, two-
thirds vote in the Senate and in the House, the States had a 
period of time to consider that amendment. Only 16 States voted 
to ratify that constitutional amendment.
    Somebody or several of you who have a better understanding 
than I have of why, after Congress had done what I think is 
some pretty heavy lifting on this subject, the States chose not 
to, except for those 16 States, to ratify. Anyone know why?
    Senator Brown. Well, I think there are several reasons, 
Senator, and one is that, when you look at constitutional 
amendments in general, there have only been 17 of them since 
the passage of the Bill of Rights. So it is a very difficult 
thing to do on every level. There were other problems with it. 
Very often I have heard that the equal rights amendment, which 
was proposed at the same time, was an interference in the 
process.
    It is much easier to become a State. We have made 37 States 
in the same period of time that we have made 17 constitutional 
amendments, and I think that, for me anyway, says it better 
than anything, that it is just a very difficult process, and I 
see it as a red herring, that people throw this up all the 
time.
    Chairman Carper. OK. Others, please? Why do you think only 
16 States said, yes, we would like to ratify that?
    Senator Strauss. I cannot speak to what happened in the 
other States, but in the District of Columbia, realizing the 
difficulties associated with this amendment as well as the fact 
that it only dealt with one-half of the problems that this bill 
addresses, that is, Federal representation only and not self-
determination, in the District of Columbia the movement toward 
District of Columbia statehood began to gain momentum as a way 
of achieving even more than a constitutional amendment would 
give us with less intrusion into the political process.
    We did not need the consent of a majority of States. We 
needed only a simple majority of Congress, which we had at that 
point, and we would have gotten both self-determination and 
full Federal representation, and preserved the Framers' idea of 
a Federal district separate and autonomous and under the 
exclusive control of Congress.
    So statehood was then the better solution. It remains the 
better solution today because it solves all of those problems, 
while at the same time preserving the Federal District.
    Chairman Carper. Thank you. Any other thoughts? Mr. 
Henderson.
    Mr. Henderson. I guess my only additional comment, Mr. 
Chairman, and I completely agree with my colleagues who have 
given you some sense of why a constitutional amendment has been 
difficult to achieve on behalf of the District of Columbia. But 
it should be noted that one of the States that ratified the 
amendment was Maryland in 1978, which by implication suggests 
that they would not have a problem with giving the District the 
ability to become a State, and that retrocession in the formal 
sense, as Dr. Pilon suggests, may not be required.
    I will say that there are many issues that come into play 
with statehood. For example, the assumption that the District 
of Columbia's electorate is likely to weigh in one direction or 
another, thus tipping the balance of power that may exist in 
the Congress today.
    Or that somehow the District is not deserving because of 
its previous history of some economic insolvency at a 
particular point in time. Those collateral factors help cloud 
the ability of the District to have a pure vote on the question 
of whether District of Columbia residents are entitled to the 
same rights of participation in our democracy as other 
residents.
    I think when the issue is framed in isolated terms, the 
right to vote stands above all else as the most important right 
that Americans have. Other rights are dependent upon our 
ability to vote. So really, voting is the language of 
democracy. If you do not vote, you do not count, and that is, 
unfortunately, the rule that affects issues like this and does 
affect how the country sees an amendment.
    Chairman Carper. Dr. Pilon, please.
    Mr. Pilon. Yes.
    Chairman Carper. And then I think we are going to wrap it 
up here.
    Mr. Pilon. We have heard that the amendment process would 
be difficult if not impossible. We have also heard, I believe, 
that it, therefore, is a red herring. I do not believe the 
Constitution should be conceived of as a red herring, nor do I 
believe, as Professor Dinh, suggested that the Court would 
treat an effort by the Congress to achieve statehood through 
mere legislation as a ``political question.''
    I think that the court would very seriously look at both 
Article I, Section 2 and Article I, Section 8, Clause 17, put 
the two together and conclude that there is a real 
constitutional problem with trying to achieve this end through 
mere legislation.
    Chairman Carper. All right. Thank you. I think I will wrap 
up with this thought: We have a chaplain here in the U.S. 
Senate, some of you have seen him, heard him, great guy. 
Retired Navy Admiral. Barry Black is his name. And he is the 
first African-American ever to be Chief of Chaplains for the 
Navy and Marine Corps, first African American ever to be 
Chaplain of the U.S. Senate.
    Sometimes he meets with us in the Bible study group that 
meets a lot of Thursdays. I like to say that six, seven, or 
eight of us who need the most help show up. Last Thursday we 
were gathered for about half an hour or so, and one of the 
things that he made a big point of is just encouraging all of 
us sometime during the day, I think when most people probably 
pray, I like to say I met a kid in the eighth grade in inner 
city school in Wilmington, and I always like to say that there 
will always be prayer in schools as long as there are math 
tests.
    But whatever the cause, whether it is math tests or world 
peace or something else, most of us pray sometime during the 
day or the week. One thing he urges us to pray for is wisdom, 
and he has a lot of admonitions that he gives and every now and 
then one of them falls on fertile soil, and for me one really 
falls on fertile soil. I pray for wisdom a whole lot, and I 
know my colleagues do, too, more than you probably would 
imagine.
    And one of the things we ask God for is to give us the 
wisdom to know what is the right thing to do, and then when we 
know the right thing to do, or have a pretty good idea of 
really the courage and strength to do that which we think is 
the right thing to do.
    I have asked this question a couple of different ways and 
before we conclude, I just want to ask, short of statehood, if 
each of you could give us maybe one idea, something that you 
think we can agree on in the interim. We have a lot of very 
wise people here on this panel, folks who have thought a lot 
about these issues, and we appreciate very much your testimony 
today.
    But could you just give us maybe one? You can repeat. You 
can all come up with the same idea. But just one thing, if we 
cannot agree on statehood this year, this Congress, or maybe 
the next Congress, what should we be able to agree on that 
would move us forward in this debate? Professor Dinh.
    Mr. Dinh. Mr. Chairman, the last time I was in before this 
Committee, I was sitting next to the late great Jack Kemp, as 
Wade Henderson has just noted, and both of us spoke in favor, 
one on legality, the other one on policy of the District of 
Columbia Representation bill, which was a compromise to add 
District of Columbia representation in addition to the Utah 
representation in the House.
    We thought it was sensible thing and legal then, and I 
think if you allow us to repeat an old policy proposal, that is 
one I would.
    Chairman Carper. Thank you, Professor. Dr. Rivlin.
    Ms. Rivlin. I would join that, but if you want another one, 
I think budget and legislative autonomy could be achieved very 
easily. And since, as was noted earlier, the Congress has not 
overturned District of Columbia legislation in I do not know 
how many decades, you are not giving up anything. You are just 
making it possible for the District to move ahead without 
having to wait. Budget autonomy again, a very simple thing: 
Allowing the District of Columbia to spend its own raised tax 
dollars in accordance with the wills of the Council and the 
Mayor.
    Chairman Carper. All right. Thank you, Dr. Rivlin. Mr. 
Henderson.
    Mr. Henderson. As Professor Dinh noted, I, too, was a 
supporter of the District of Columbia Representation Bill. But 
having said that, it has been overtaken by events and is no 
longer a viable initiative, even to respond to the need to 
provide a vote in the House of Representation and speaking 
privileges in the Senate. I support budget autonomy for the 
District.
    But in each instance, that is an inadequate solution to the 
fundamental problem of providing voting representation for the 
District in both houses of Congress, and in providing the self-
determination that a vote for Members of Congress provides. And 
so, while I believe change occurs incrementally, would love to 
see a change occur in that direction for the District.
    I fear that there is nothing that has been discussed that 
is a satisfactory alternative to providing the structure and 
providing the right to vote that the bill that you have 
introduced would do. And so, these interim measures, though 
they may be attractive for building bipartisan support, do not 
ultimately go to the fundamental question of how you treat 
District residents with the equality that citizenship demands.
    Chairman Carper. All right. Mr. Henderson, thank you. Dr. 
Pilon.
    Mr. Pilon. You asked what it is we can all agree upon. I am 
going to offer just a very simple point, namely, as the person 
here who is offering the discordant note, I think we can all 
agree that you have conducted an eminently fair hearing.
    Chairman Carper. Doctor, you are welcome to take more time 
to speak. [Laughter.]
    You do not have to stop there. Thank you. Thank you for 
your kindness. Senator Strauss.
    Senator Strauss. Mr. Chairman, I am on record as supporting 
legislative autonomy and budget autonomy, bills that have been 
introduced by one of your colleagues and aptly titled the 
Paperwork Reduction Act because of their positive impact on 
reducing superfluous Federal oversight on things that the----
    Chairman Carper. Did you mention judges? One of you 
mentioned judges.
    Senator Strauss. I did mention judges.
    Chairman Carper. Would you expand on it just a little bit?
    Senator Strauss. Well, one of the things that makes me a 
more frequent visitor to this Committee is that when this 
Committee, not the Judiciary Committee, has to conduct 
confirmation hearings on Federal judges nominated by the 
President, confirmed by the Senate, who have exclusively local 
purview for the courts of the District of Columbia. And while 
these judges tend to be extraordinarily well qualified and 
worthy of all of the pomp and tradition that comes from a 
Presidential nomination and confirmation by this body, a 
greater dignity to them and to the people who they serve on the 
bench would be to be treated equally as full citizens.
    And so, it is something, frankly, your Committee has done a 
decent job of moving those along, but there are times when 
vacancies sit on our court because they are, understandably, 
not a priority, and the administration of justice in the 
District of Columbia is handicapped because, frankly, your 
Committee has more important things that it should be doing 
rather than confirming local judges that would not be involved 
with the Federal Government or any other State.
    Chairman Carper. Thank you. I think you make a very good 
point. Senator Brown.
    Senator Brown. Well, I have to agree with Mr. Henderson. I 
mean, I think all of us up here, Senator, have tried to stand 
behind interim measures, but none of them have worked. We have 
had all sorts of governments in the District of Columbia, 
commissioners, mayors, sometimes our Delegate has a vote, 
sometimes she does not.
    We need a permanent solution to this problem, and I think 
equality is a prerequisite to democracy, and any other solution 
that does not give us full equality, I think, is like asking us 
to sit in the middle of the bus. I think if we pay the fare, 
that we have to pick our seat just like everybody else, and I 
think statehood is really the only solution for that.
    Chairman Carper. All right. Thank you. It has been a 
wonderful hearing. I think one of the reasons why it is not 
better attended is that people are coming in from all over the 
country, as we speak here, in order to be on hand when we start 
voting in a few minutes. There are a number of my colleagues 
who do have a strong interest in these issues, and my guess is 
they are going to write to you and they will have that 
opportunity over the next 15 days to submit statements for the 
record and to submit questions to you for the record. I would 
just ask you, when you receive those questions, that you 
respond as promptly as you can.
    I said earlier, and I will close with this. I mentioned my 
moral compass, the four principles that help guide me. I should 
add this. I usually violate at least one of them a week, 
sometimes more. But the nice thing about having a compass is 
when you get off course, you know how to get back on the right 
course. Very helpful to me in that regard.
    As it turns out, I am not the only one who has really 
almost verbatim those core values. Figure out the right thing 
to do, just do it. Not the easy thing, not the expedient thing. 
What is the right thing to do and try to do that.
    Second, to treat other people the way we want to be 
treated. Third, if it is not perfect, make it better. Not to 
form a perfect union, but a more perfect union. And last, just 
do not give up. If you know you are right, you are sure you are 
right, just do not give up. You would be amazed how many of my 
colleagues I talk to about those core values and how many of 
them say, Well, those are really my core values.
    I will close on a hopeful note and just say that given that 
Democrats, Republicans, even a couple of those radical 
Independents, I hear have values like that here in the Senate. 
I have some hope that we can do better and we are going to. I 
think this has been a very good hearing. Both the first panel 
and this panel, we are grateful to you for your preparation, 
for your heartfelt commitment and your willingness to spend 
this time with us today.
    With that having been said, this hearing is adjourned. 
Thank you so much.
    [Whereupon, at 5:24 p.m., the hearing was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
